<html>
<title> - DRIVEN TO DISTRACTION: TECHNOLOGICAL DEVICES AND VEHICLE SAFETY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
    DRIVEN TO DISTRACTION: TECHNOLOGICAL DEVICES AND VEHICLE SAFETY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                AND THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2009

                               __________

                           Serial No. 111-79


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-850                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef9eef1defdebedeaf6fbf2eeb0fdf1f3b0">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JAN SCHAKOWSKY, Illinois             SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah                   PARKER GRIFFITH, Alabama
G.K. BUTTERFIELD, North Carolina     ROBERT E. LATTA, Ohio
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)


        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JANICE D. SCHAKOWSKY, Illinois       CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN P. SARBANES, Maryland           RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, New Jersey            GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE L. BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)
                                 ------                                

      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              CLIFF STEARNS, Florida
ANNA G. ESHOO, California            NATHAN DEAL, Georgia
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MICHAEL F. DOYLE, Pennsylvania       GEORGE RADANOVICH, California
JAY INSLEE, Washington               MARY BONO MACK, California
ANTHONY D. WEINER, New York          GREG WALDEN, Oregon
G.K. BUTTERFIELD, North Carolina     LEE TERRY, Nebraska
CHARLIE MELANCON, Louisiana          MIKE FERGUSON, New Jersey
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. George Radanovich, a Representative in Congress from the 
  State of California, opening statement.........................     5
    Prepared statement...........................................     8
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    13
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................    14
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................    15
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................    15
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    16
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    17
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    18
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............    19
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    19
Hon. Zachary T. Space, a Representative in Congress from the 
  State of Ohio, opening statement...............................    21
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................    21
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................    22
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    23
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    24
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    25
    Prepared statement...........................................    27
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    29
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................    29
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................   122

                               Witnesses

Ray LaHood, Secretary, Department of Transportation..............    30
    Prepared statement...........................................    33
Julius Genachowski, Chairman, Federal Communications Commission..    37
    Prepared statement...........................................    40
David D. Teater, Senior Director, Transportation Strategic 
  Initiatives, National Safety Council...........................    56
    Prepared statement...........................................    60
Clarence M. Ditlow, Executive Director, Center for Auto Safety...    67
    Prepared statement...........................................    69
Robert Strassburger, Vice President, Vehicle Safety & 
  Harmonization, The Alliance of Automobile Manufacturers........    73
    Prepared statement...........................................    75
Steve M. Largent, President and CEO, CTIA--The Wireless 
  Association....................................................    80
    Prepared statement...........................................    82
Thomas A. Dingus, Ph.D., Director, Virginia Tech Transportation 
  Institute......................................................    89
    Prepared statement...........................................    91
Anne T. McCartt, Vice President, Research, Insurance Institute 
  for Highway and Auto Safety....................................    98
    Prepared statement...........................................   100


    DRIVEN TO DISTRACTION: TECHNOLOGICAL DEVICES AND VEHICLE SAFETY

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2009

        House of Representatives, Subcommittee on Commerce, 
            Trade, and Consumer Protection, joint with the 
            Subcommittee on Communications, Technology, and 
            the Internet, Committee on Energy and Commerce, 
            Washington, DC.
    The subcommittees met, pursuant to call, at 9:35 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Rick Boucher 
[chairman of the Subcommittee on Communications, Technology and 
the Internet] presiding.
    Present from the Subcommittee on Commerce, Trade, and 
Consumer Protection: Representatives Rush, Schakowsky, Sutton, 
Green of Texas, Barrow, Matsui, Castor, Space, Dingell, Ex 
Officio; Radanovich, Pitts, Terry, Murphy, Gingrey, and 
Scalise.
    Present from the Subcommittee on Communications, 
Technology, and the Internet: Representatives Boucher, Markey, 
Eshoo, Inslee, Butterfield, Matsui, Christensen, Castor, Space, 
Welch, Dingell, Waxman, Ex Officio; Stearns, Shimkus, Terry, 
and Blackburn.
    Staff Present: Michelle Ash, Chief Counsel, CTCP 
Subcommittee; Anna Laitin, Professional Staff; Roger Sherman, 
Chief Counsel, CTI Subcommittee; Amy Levine, Counsel; Bruce 
Wolpe, Senior Advisor; Will Cusey, Special Assistant; Sarah 
Fisher, Special Assistant; Shawn Chang, Counsel; Lindsay Vidal, 
Press Assistant; Theresa Cederoth, Intern; Aaron Anpaw, CBC 
Fellow; Greg Guice, FCC Detailee; Timothy Robinson, Counsel; 
Will Carty, Minority Professional Staff; Sam Costello, Minority 
Legislative Analyst; Brian McCullough, Minority Senior 
Professional Staff; Shannon Weinberg, Minority Counsel; and Amy 
Bender, Minority Detailee.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The hearing will come to order. Good morning 
to everyone. We convene today a joint hearing of the 
Subcommittee on Communications and the Subcommittee on Consumer 
Protection, both subcommittees of the House Committee on Energy 
and Commerce; and our subject is consideration of safety issues 
associated with drivers distracted by wireless and other 
electronic communications devices.
    I want to acknowledge and express appreciation for the 
excellent cooperation of Chairman Rush of the Consumer 
Protection Subcommittee and his fine staff as we made 
preparations for today's hearing. By prior arrangement, I will 
be chairing this first portion of the hearing and Chairman Rush 
will then chair the balance.
    The National Highway Traffic Safety Administration 
estimates that 25 percent of accidents involve some form of 
driver distraction, resulting in 5,870 deaths and more than 
500,000 injuries in a recent year. Texting while driving would 
appear to be alarmingly prevalent, with 21 percent of drivers 
in a recent survey indicating that they have done so within the 
last month. Among less experienced teen drivers, that number 
more than doubles to 46 percent, and 51 percent of those teen 
drivers admitted to cell phone use while driving.
    The use of electronic devices while driving imperils not 
only the distracted drivers, but all highway users. Those who 
are not distracted are victims of crashes that are caused by 
those who are. We are interested in learning this morning 
whether the problem is sufficiently egregious that a Federal 
legislative response is now required, and if that response is 
in fact now required, what should that response be.
    Some States have laws prohibiting the use of handheld cell 
phones by all drivers; 21 States and the District of Columbia 
ban all cell phone use by novice drivers, including both 
handheld and hands-free phones; 18 States and the District of 
Columbia prohibit text messaging by all drivers. And we are 
interested in learning how effective these laws have been and 
whether our witnesses believe that the time has arrived for 
Federal legislation that practically would ban some or all of 
these practices, perhaps by withholding Federal highway funds 
or some portion thereof from States that do not adopt the 
federally recommended prohibitions.
    There is also a sufficient Federal role for education; and 
the wireless industry has launched a campaign to educate the 
public about the dangers of distracted driving. Is it time for 
the Federal Government to expand beyond these privately funded 
education efforts?
    Chairman Genachowski of the FCC has suggested an aggressive 
public education campaign somewhat similar to the highly 
successful one that recently promoted the digital television 
transition. I will look forward to hearing his comments this 
morning on how such a campaign could be structured, including 
the respective roles of the public and private sectors and his 
thoughts about how effective such a campaign might be. Other 
suggestions from our witnesses for an appropriate Federal 
response to the problem would be welcome as well.
    Finally this morning, I want to point out the excellence 
that has been achieved by Virginia Tech's Transportation 
Institute in evaluating the safety issues associated with 
driver distraction and inattention. Tom Dingus is the 
institute's director, and he is one of our witnesses on the 
second panel this morning. Tom will be discussing with us the 
pioneering work that he and the Virginia Tech Institute have 
accomplished in the use of naturalistic driving studies through 
which sophisticated instrumentation is installed in vehicles 
for the continuous monitoring of driver behavior and 
performance.
    Mr. Dingus has widely acknowledged national expertise on 
the use of naturalistic driving observation, having 25 years of 
experience in the field and having authored more than 40 books, 
150 technical publications and 20 major widely read reports on 
the subject. I congratulate Mr. Dingus for the advances in the 
field that he and the Virginia Tech Transportation Institute 
have achieved, and we will look forward to hearing his 
testimony along with that of our other witnesses this morning.
    That concludes my opening statement. And at this time I am 
pleased to recognize the ranking Republican on our 
Communications Subcommittee, the gentleman from Florida, Mr. 
Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning and thank you, Mr. Chairman. I 
want to welcome our former colleague, Ray LaHood, and also Mr. 
Genachowski, the Chairman of the FCC; and so I welcome all of 
you in taking your time to be with us. And I thank Chairman 
Rush for his participation for holding this timely hearing.
    The fundamental question, I guess, is, how do we address a 
very real safety issue concerning drivers that simply are 
distracted by electronic communication devices? The big 
question is, is legislation needed, is regulation needed, or 
would a robust educational campaign be sufficient to take care 
of the problem? So I look forward to our hearing the panelists.
    And as new technologies continue to flourish, we are more 
and more distracted in our lives. This is especially true when 
we get behind the wheel of a car. Distraction caused by cell 
phone text messaging while driving increases the risk of 
accidents by 23.2 percent times in comparison to normal 
driving. That is according to the Virginia Tech Transportation 
Institute report.
    The report also points out that texting took a driver's 
focus away from the road for an average of almost 5 seconds, 
enough time, the report pointed out, to travel the length of a 
football field at 55 miles per hour.
    Furthermore, according to a AAA study, 61 percent of teens 
admitted to engaging in risky behavior while driving. Of that 
61 percent, 46 percent of teens admitted to sending or reading 
text messages while driving, and 51 percent talk on cell phones 
while driving.
    Now, other studies cite the use of a wireless device as the 
number one source of driver inattention. Along with drunk 
driving, the use of electronic devices is becoming the biggest 
threat to driver safety, especially among our teenagers.
    These numbers are staggering. So the question now becomes, 
what do we do about it. The first and perhaps most important 
step is education in my opinion. In September 2009, the 
wireless industry in partnership with the National Safety 
Council--they launched a teen-focused education campaign to 
provide parents and teens with information on the dangers of 
distracted driving. As part of the campaign, a television 
public service announcement and Web site were developed to 
remind teens and novice drivers that when they are on the road, 
be off the phone.
    The PSA is the latest in a series of educational efforts 
undertaken by the industry dating back nearly a decade. The 
industry has distributed the public service announcement to 
more than 600 television stations across this country. The 
wireless industry should be commended for their ongoing 
educational efforts.
    Furthermore, Federal, State and local governments are 
getting involved. I commend our Secretary LaHood for convening 
the Distracted Driving Summit last month and FCC Chairman 
Genachowski for committing to hold a distracted driving 
workshop in the coming weeks. I hope that this is just the 
beginning of the government's educational efforts.
    But more, obviously, can be done. For example, local school 
districts need to encourage driver education teachers to spend 
more time talking about the dangers of using a cell phone or 
fiddling with an iPod while driving. Local auto clubs, civic 
organizations and PTAs can get involved as they did to help 
fight drunk driving. This need not be a government-run 
educational program.
    However, will education be enough to stem the tide of 
dangerous driving habits? A growing number of States are adding 
laws to combat this problem. Eighteen States, in fact, and the 
District of Columbia already have passed laws making texting 
while driving illegal; and seven States and the District have 
banned driving while talking on a handheld cell phone.
    If the States are going to pass their own safety laws, the 
question would be, does the Federal Government need to enact 
laws as well? I would prefer at first to allow the States to 
address the issue without a Federal mandate or withholding of 
Federal transportation funds.
    One legislative proposal that has been mentioned would 
penalize States by withholding 25 percent of their Federal 
highway funds if the State does not enact a law prohibiting 
drivers from writing, reading or sending text messages while 
driving. In 1998, in order to promote seatbelt use, Congress 
opted instead to incentivize States to enact seatbelt laws. 
Congress created two grant programs to encourage and increase 
the use of seatbelts and child safety seats and to encourage 
States to increase seatbelt use rate.
    While this approach may be better, I do not believe the 
Federal Government needs to have an all-out Federal program at 
this time. But I look forward to hearing our witnesses and more 
on this subject.
    So thank you, Mr. Chairman. I look forward to questioning 
some of these witnesses on this important subject. Thank you.
    Mr. Boucher. Thank you very much, Mr. Stearns. The 
gentlelady from California, Ms. Eshoo, is recognized for 2 
minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Good morning, Mr. Chairman. I want to thank you 
and the chairman of the Consumer Protection Subcommittee for 
having this joint hearing, for this timely discussion about the 
misuse of electronics while driving, and welcome our two 
distinguished witnesses, Secretary LaHood and Chairman 
Genachowski, both obviously good friends of the House, having 
served here as a Member of the House and also a staffer in the 
House.
    I think I come from the commonsense end of the spectrum. I 
think everyone should follow traffic signals and the rules of 
the road. I think drivers should not be distracted by using 
electronic devices. It ought to go without saying that drivers 
should not have their eyes focused on an electronic device, be 
reading a message or texting anyone.
    Every State has laws to deal with reckless driving problems 
and some, like California, have a stricter regime for dealing 
with electronic devices. In my State, no one is permitted to 
text while driving, or using a handheld phone, and drivers 
under 18 may not use any electronic device at all.
    The New York Times has been publishing an ongoing series 
about the use of electronic devices and distracted driving. A 
recent article described the British method of enhanced 
penalties for dealing with electronically distracted drivers 
and told the sad story of a young woman who killed someone very 
much like herself while texting.
    So I think that some attempts to educate drivers have 
backfired. As another New York Times article noted, it seems 
that young people laugh off the scare films about this and 
often see themselves as invincible.
    One article in the New York Times series that I found 
particularly troubling recounted the experiences of truck 
drivers. They are not kids and they are not inexperienced 
drivers. They are people who should know better, but it has 
become common practice for long-haul drivers to use full-scale 
computer terminals when driving. The Virginia Tech 
Transportation Institute found that truckers using on-board 
computers faced a 10 times greater risk of crashing, nearly 
crashing, or wandering from their lane.
    So we are not just dealing with texting on phones or 
similar devices. We have an epidemic of electronic distraction.
    Let's consider the problem of the GPS systems which are 
specifically designed for drivers. When a driver reprograms the 
device while barreling down the freeway at 65 miles per hour, 
that activity can be just as dangerous as sending a text 
message. So we need to make laws evenhanded and inclusive. It 
makes no sense to require hands-free phones if someone has to 
dial a number, it can be the momentary distraction that can end 
lives.
    I look forward to hearing from our distinguished witnesses. 
Obviously, electronic devices are here to stay. And my guess 
is, as we move into ubiquitous fourth generation wireless 
devices, this problem can only worsen.
    Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Ms. Eshoo.
    The gentleman from California, Mr. Radanovich, the ranking 
member of the Consumer Protection Subcommittee is recognized 
for 5 minutes.

 OPENING STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman. Appreciate you 
calling today's hearing on distracted driving. I was speaking a 
little bit earlier, but I was a little bit distracted on my 
BlackBerry; and I have put it down now so I am focused.
    But there is no doubt that drivers need to be attentive 
when driving their vehicle. Over 37,000 people died on our 
roads as a result of auto accidents in 2008. And although the 
number is quite large, the good news is that it is 
significantly lower than the number of fatalities in 2007.
    We have seen improvements in vehicle safety, and we have 
lowered the overall rate of auto-related deaths through 
multiple approaches, technology improvements that enhance 
vehicle safety, education campaigns to lower the incidence of 
drinking and driving, and greater enforcement of existing laws 
including seatbelt laws.
    These improvements have all been accomplished through the 
combination of public/private partnerships, as well as through 
cooperation between the States and Federal Government; and 
should be examined as a potential approach in reducing 
distracted driving.
    Nonetheless, there is no single cure to preventing the 
tragic loss of life on our roads that is inevitable every year. 
A car is a several-thousand-pound instrument that can travel at 
great speeds on the highway and needs to be regarded with 
respect for its capability to cause serious injury or death 
with one moment of driver error. Even the best technology, such 
as lifesaving air bags, is generally limited to those inside 
the vehicle and cannot save pedestrians or unprotected 
passengers.
    Addressing the root causes of accidents and seeking to 
prevent them is good public policy. We continue to battle a 
never-ending fight over alcohol-impaired driving, which is the 
most serious factor affecting highway deaths.
    The current topic of distracted driving is not new. Cell 
phone use has been a growing fixture for more than a decade and 
has been in the public debate regarding its effect on driving 
for nearly as long. How we do it efficiently and effectively is 
but another question.
    Many States have responded with hands-free requirements for 
drivers that use cell phones while operating their vehicle. I 
am interested in how those efforts have affected driver 
behavior and whether their experiences are relevant to the 
latest concern, texting while driving.
    Again, a growing number of States have assumed their 
traditional role of writing the laws governing driver behavior 
with respect to texting and enacting various laws to ban the 
practice. I am sure no one here supports the notion that taking 
your eyes off the road is a good idea, nor that we want to be 
driving down the road when another driver isn't watching the 
road. Changing driver behavior to avoid distractions and focus 
on driving is the core issue of what we are addressing here 
today.
    Given that texting is disproportionately conducted by 
younger drivers who have grown up with this technology, the 
risks associated with texting while driving will only increase 
as the population most likely to text actually becomes a larger 
percentage of drivers on our roads.
    I believe that we should allow the States to continue to 
act in this area and supplement their efforts where we can with 
a public/private education campaign. Ultimately, as we have 
discovered in other laws Congress has sought to force the 
States to enact, it will depend in large part on effective 
enforcement and whether enforcement and education are 
sufficient deterrents to alter behavior.
    Early evidence suggests it is difficult to enforce a 
complete ban on cell phones, as many users will switch to 
hands-free devices that are difficult to detect. Similarly, 
funds available to provide for increased enforcement is a 
luxury that most States and the Federal Government do not 
enjoy, particularly when weighed against competing priorities 
to improve driver safety such as efforts to curb drunk driving.
    Finally, as many of our panelists will probably agree, 
enforcement alone is not the solution. I have a number of 
questions about how we can use existing State laws, combined 
with public/private education campaigns, to improve deterrence 
and whether such efforts will be effective. According to Ms. 
McCartt's testimony, it is unclear whether the frequency of 
crashes in States that have enacted bans has actually been 
lowered when compared to crash data prior to the bans. So the 
evidence should be substantiated before a ban is considered as 
a solution, if we want to improve safety.
    I am equally interested in exploring how technology can be 
used to improve safety and discuss the specific applications 
being developed to address the uses of devices while driving. 
The technology that has made our lives much easier and made us 
more productive may also hold potential to mitigate many of the 
risks associated with the same devices.
    Finally, one aspect that I rarely hear discussed related to 
all driver safety issues, but which I believe is relevant is 
the level of qualifications of the drivers. I believe in 
States' rights to qualify and license their residents to drive 
a vehicle, but I think at some point we should discuss whether 
the bar is set appropriately to test for competency or whether 
we should be encouraging the States to reexamine their approach 
to issuing driver's licenses.
    Thank you, Mr. Chairman. I yield back.
    Mr. Boucher. Thank you very much, Mr. Radanovich.
    [The prepared statement of Mr. Radanovich follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.001
    
    [GRAPHIC] [TIFF OMITTED] T4850A.002
    
    [GRAPHIC] [TIFF OMITTED] T4850A.003
    
    [GRAPHIC] [TIFF OMITTED] T4850A.004
    
    [GRAPHIC] [TIFF OMITTED] T4850A.005
    
    The gentleman from Georgia, Mr. Barrow, is recognized for 2 
minutes.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. I thank the Chair.
    The chairman has set the table by pretty much setting forth 
the real purposes for this hearing today. One is to raise 
awareness of the problem--and it is a real problem; and second, 
to explore whether or not a Federal response is appropriate to 
this problem and, if so, what is the best response at the 
Federal level.
    On the issue of raising awareness to this problem, I, like 
a lot of folks have thought and reflected a great deal on my 
own practices and what other folks do, and I can't help but 
think that one of the real insidious aspects of this problem is 
the incredible disconnect between what folks are doing and what 
they are feeling while they are doing it.
    If someone is impaired because they are under the influence 
of alcohol, they know that they are impaired. Deny what you 
will, say what you will, anybody who is impaired because they 
have had too much drink knows that it is not having a positive 
impact. As a subjective matter they know they are at risk to 
the extent they think about it at all.
    But you take somebody who is riding down the road and they 
are text messaging, the subjective experience is the exact 
opposite. Here are people that are doing two very complicated 
things at once, and it is sort of exhilarating in a way. One of 
the reasons why folks do it, sometimes they do it just to show 
they can do it.
    It is an insidious aspect of this problem that the 
objective effects of being impaired by distraction from 
electronic devices is, insofar as the rest of the world is 
concerned, exactly the same as the impact of being impaired by 
being under the influence of alcohol. Insofar as the way your 
car behaves, there is no difference; but the subjective 
experience of the person who is doing it is the exact opposite, 
and that is one of the things, I think, that gets a lot of 
people doing this and adds to our problem of trying to figure 
out what the right solution is.
    As far as the appropriate level of Federal response 
concerned, I don't know what that is. But I know this. I want 
to commend the Obama administration and Secretary LaHood, in 
particular, for setting a good example. The Federal Government 
is both a contributor to the problem to the extent we have got 
rolling stock and people on the roads, but it is also setting a 
good example or a bad example. And the administration has set a 
good example by making sure that as far as Federal employees 
are concerned we are going to observe the highest and best 
standards and ban these practices.
    So I want to commend Secretary LaHood for leading by 
example, and I look forward to any contributions you all have 
to make as to what the appropriate response is beyond that.
    Thank you, and I yield back.
    Mr. Boucher. Thank you, Mr. Barrow.
    The gentleman from Illinois, Mr. Shimkus, is recognized for 
2 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. I will be brief.
    I want to welcome my colleague and friend, Ray LaHood, who 
is my mentor also, and I miss him on the floor--helping me sort 
through some of these votes, Ray. So I just wanted to say that 
publicly.
    Chairman, welcome. We hope you don't make any major 
announcements tomorrow after visiting with us today so we will 
be watching for that.
    The second panel, Steve Largent, our former colleague on 
this committee, I want to welcome you.
    Distracted driving is bad. I am on the record that 
distracted driving is bad.
    Issue two: I have never been for the Federal Government 
extorting highway funds to obtain some means to an end that 
should be decided through the States.
    So I look forward to the hearing. Thank you, Mr. Chairman. 
I yield back.
    Mr. Boucher. Thank you very much, Mr. Shimkus.
    The gentlelady from California, Ms. Matsui, is recognized 
for 2 minutes.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you Chairman Boucher, and also Chairman 
Rush for calling today's joint hearing. I applaud your 
leadership in addressing this very important issue.
    I would also like to thank Chairman Genachowski and my 
former colleague, Secretary LaHood, for being here this 
morning.
    It is very important that we examine the safety issues 
caused by drivers who are distracted by communication devices. 
With more than 270 million cell phone subscribers, most 
Americans rely on wireless devices to communicate with their 
family, their friends and for business purposes.
    Recent studies have shown that about four out of five cell 
phone owners make calls while driving, and nearly one in five 
send text messages. While several States, including my home 
State of California, have banned texting and the use of 
handheld phones while driving, such prohibitions have not 
deterred enough motorists from using such devices or prevented 
accidents as a result.
    In California, we have had a number of tragic incidents 
involving cell phones or texting, including last year's tragic 
commuter train incident--an accident in which the operator was 
texting and 25 people died.
    A current study by Car and Driver Magazine indicated that 
texting poses a greater threat than driving under the 
influence. That being said, I am pleased that the 
administration, as well as the wireless industry, are taking on 
this issue. I applaud the leadership of Secretary LaHood for 
bringing a renewed sense of urgency to address distracted 
driving in all modes of transportation, particularly vehicles 
that transport children. Additionally, I commend Chairman 
Genachowski for indicating in his testimony that the FCC will 
explore ways in which drivers could be informed via outreach 
and education programs.
    Moving forward, we must promote greater awareness regarding 
the dangers of driving while distracted. It is my hope that we 
get to the point where Americans see the value of safe cell 
phone use in the same way they view putting on a seatbelt. It 
is a precautionary measure they can't afford not to use.
    I thank you, Mr. Chairman, for holding this important 
hearing today. I look forward to working with you and our 
colleagues on this committee to address this issue. And I yield 
back the balance of my time.
    Mr. Boucher. Thank you, Ms. Matsui.
    The gentleman from Nebraska, Mr. Terry, is recognized for 2 
minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman. And witnesses, thank 
you for being here. And Ray, it is always great to see you 
here.
    I think we all understand that every car wreck is caused by 
distraction, whether it is the momentary flash of going over in 
your mind your opening statement and missing the stop sign, or 
the too highly dangerous yet becoming all too common actions of 
texting while driving, or drinking while driving. I think it is 
appropriate that we have the discussions here--well, maybe not 
here, but at least nationally have discussions regarding these 
dangerous activities while driving.
    I am concerned, though, that we are talking about taking 
Federal action. I believe that driving laws, in particular, are 
inherent to States' rule, including ages for alcohol--those 
should be up to States--and therefore, I would encourage every 
State to look at any laws regarding texting while driving.
    Also, as we look here or have this discussion, I want to 
see where our witnesses lie on hands-free technologies, because 
they are obviously less distracting. Is that something that 
should also be banned as well?
    So I want to hear what the involvement recommended by the 
Federal Government and to what extent that involvement should 
be on hands-free wireless technology.
    So I will yield back my 2 seconds.
    Mr. Boucher. Thank you, Mr. Terry.
    The gentlelady from the Virgin Islands, Mrs. Christensen, 
is recognized for 2 minutes.

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. You know, with 
this hearing, I think that we may be at the beginning of a 
major public health advance, as many have said, much like 
seatbelts have been; and so I thank the Chairs and ranking 
members for holding this important hearing.
    And I also want to thank our witnesses who are testifying 
and extend a special welcome to our former colleague, Secretary 
LaHood and President and CEO Steve Largent.
    And, Secretary LaHood, I want to take this opportunity to 
thank you for your commitment to this cause in fulfillment of 
your promise to those who you met who have lost loved ones or 
been victims of distracted driving; and also to thank you, 
Chairman Genachowski, for what you have done and plan to do to 
address this problem, and for reminding us also that technology 
has also saved lives.
    I made reference to seatbelts, and I became a more 
consistent seatbelt wearer shortly before my first daughter 
turned 15, when she was taking driving lessons, to be an 
example to both of them when they began to drive. Too many, 
young and old, have lost their lives in car accidents because 
they did not wear seatbelts. But seatbelts have also saved 
countless lives.
    The same can happen with the initiatives and new 
technologies to reduce distractions while driving we are 
discussing today. I will have to admit that I have texted while 
I was driving, but that is a thing of the past. From personal 
experience, I can tell you that just talking on the phone, even 
with a Bluetooth, or just looking down to change a radio 
channel can be a significant distraction and even lead to an 
accident.
    So, for me, this is a public health issue that affects 
everyone, but mostly our young people. There are many dangers 
that threaten their lives, and we need to reduce them wherever 
we can as we are exploring today. As has been said, it will 
take the efforts of one to reduce accidents caused when we take 
our eyes off the road to text, to call, to read or for any 
other reason.
    I am proud to say that my district, the U.S. Virgin 
Islands, has enacted laws that ban the use of handheld devices, 
require drivers to use hands-free devices and, just last week, 
to prohibit text messaging or on watching videos while driving.
    So I look forward to the testimony, and I would like to 
especially thank the witnesses for the efforts they have 
already been undertaking, especially those who are sharing 
their personal tragedies with us on this issue.
    Mr. Boucher. Thank you, Mrs. Christensen.
    The gentlelady from Tennessee, Mrs. Blackburn, is 
recognized for 5 minutes.
    I am sorry, for 2 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. And I probably 
won't even use the 2 minutes, but I appreciate your 
graciousness of offering 5 there.
    I do want to welcome our former colleagues, Mr. LaHood, who 
was always very kind to me--Mr. Largent, we are glad to see you 
here. And, Mr. Chairman, I am delighted that you are here with 
us. We welcome all of our witnesses.
    And, Mr. Chairman, I thank you for the hearing today. I 
think that sometimes we grow very weary of the long arm of the 
Federal Government telling us what we can and cannot do. And we 
are, at the same time, very concerned about what we see as the 
distraction that is there from utensils and innovations and 
gadgets and items in our cars that do distract us from watching 
the road and keeping both hands on the wheel.
    I think that where we are going to move with this and where 
my questioning will move with you all is looking at where the 
public education responsibility is, and then if there is 
something that is needed there for education or not.
    And, Mr. Chairman, I am going to really be interested in 
your comments on public education. I am always pleased to see 
an item where we can agree and where we can focus our energies 
together. So I am going to be interested in your comments.
    And I applaud all the industries that have moved forward 
with public service education to raise the awareness and to 
educate our citizens, especially younger drivers, about the 
perils of distraction and driving.
    I thank you all, and I yield back.
    Mr. Boucher. Thank you, Ms. Blackburn.
    The gentleman from Michigan, Mr. Dingell, chairman emeritus 
of the full committee, is recognized for 5 minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you. I commend you for 
convening today's hearing. And I look forward to the results of 
our inquiry into the distraction that relates to technological 
devices and driving.
    I particularly want to welcome our old friend, Mr. LaHood, 
back. Welcome back, Mr. Secretary.
    And I also want to welcome Chairman Genachowski of the 
Federal Communications Commission.
    I anticipate an informative discussion about the dangers 
posed by technological devices to driver safety, as well as 
roles played by government industry and other groups in 
identifying and in addressing them.
    Rather than focus my remarks on the finer details of the 
matter, I would like to take this opportunity to remind my 
colleagues of the necessity to ground public policy in adequate 
research and to provide administrators with flexibility to 
adopt measures of proper character in the face of change. 
Although we share a justified measure of concern about the 
relationship between use of certain technological devices and 
driver safety, we have to guard against enthusiastically 
enacting overly prescriptive statutes and directing creation of 
regulatory regimes that, in the long term, may stifle 
innovation and ultimately show them to be of marginal benefit 
to the cause of improving driver safety.
    By analogy then, in response to widespread apprehension 
concerning the safety of consumer products, particularly 
children's toys, the Congress and the President enacted the 
Consumer Product Safety Improvement Act. The result was the 
implementation of regulations with unnecessary broad 
application, coupled with a peculiar absence of flexibility in 
their administration by the Consumer Product Safety Commission.
    I would note that this committee was rather careful in its 
handling of those matters in a fully bipartisan way. But, of 
course, when the matter got to the United States Senate, again, 
things do change.
    While certain issues such as texting while driving lend 
themselves quite easily to being addressed by statutory or 
regulatory resolution, I urge my colleagues to exercise a 
modicum of restraint in addressing the large matter at hand, 
thereby ensuring design and implementation of sound public 
policy that recognizes and incorporates the necessity that I 
just mentioned.
    Thank you for your courtesy, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Boucher. Thank you very much, Mr. Dingell.
    The gentleman from Georgia, Mr. Gingrey, is recognized for 
2 minutes. And he is not here.
    The gentleman from Pennsylvania, Mr. Murphy, is recognized 
for 2 minutes.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy of Pennsylvania.  Thank you, Mr. Chairman. And 
welcome to our distinguished and esteemed panelists today.
    I want to say that when I was coming in from the airport 
the other day, one of my staff driving me, we were driving slow 
because there was a vehicle in front of us with its turn signal 
on, swerving lane to lane. No one could pass because none of us 
were quite clear what was going on. This vehicle eventually 
exited off a ramp, and I could glance over and see the driver, 
no hands on the wheel, hands on texting and eyes were not even 
on the road. I am surprised the driver did not end up in the 
Potomac River--unfortunately, an all-too-common scene that we 
see and one that many times ends up with tragic consequences 
with auto accidents and deaths of all ages.
    We have--that is one of the many concerns we have. 
Obviously, the Department of Transportation is deeply concerned 
about the things that contribute to that, whether it is a 
parent trying to scold their child in the back seat or buckle 
someone up when they should have done those things before the 
car was moving, to changing channels on the radio to putting 
makeup on in the car, shaving, reaching for something 
underneath. All those are dangerous practices and all those 
that we need to be paying attention to.
    But in this particular case it is the issue of technology 
and how none of us can cut the tether to communicate with our 
offices and other people somehow as if all of these things are 
life-and-death matters. I am looking forward to hearing any 
solutions to this, of what can be done.
    All of us at times have been guilty of doing this very 
thing. All of us need to be paying better attention to keeping 
our eyes on the road and our mind on the road, and finding ways 
to do this that are sensible, practical and, above all, safe; 
and I am looking forward to hearing these recommendations from 
both of you.
    And with that, I yield back.
    Mr. Boucher. Thank you, Mr. Murphy.
    The gentleman from Massachusetts, Mr. Markey, is recognized 
for 2 minutes.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much.
    So we have this new phenomenon. ``DUI'' used to stand for 
``driving under the influence''; now it stands for ``driving 
using the Internet.''
    And this new DUI is something that obviously is a 
combination of the jurisdictions of the two gentlemen sitting 
here today. The jurisdiction of the Federal Communications 
Commission and Chairman Genachowski has created this anytime, 
anywhere communications capability, but it is now being applied 
over to Secretary LaHood's jurisdiction--trains, planes and 
automobiles. And over there we see pilots using computers, 
laptops, and missing their airport by 150 miles, or subway 
operators who are texting when they should be looking at the 
next stop, or truck drivers who have their computers on their 
laps while they are out with 18-wheelers on the highway. So 
this is clearly a huge issue.
    Now, in a previous generation, we would wind up mandating 
seatbelts, mandating air bags, trying to use technologies to 
protect against the deficiencies that existed in the old 
technology, the automotive technology, so that we can protect 
passengers. And Mothers Against Drunk Driving would come along, 
and they would urge a public education campaign so that we 
would discourage that kind of behavior.
    I think what we have to do here is to try to find solutions 
that perhaps could, in the same way we did with seatbelts and 
air bags, find new technologies that can help us to deal with 
this issue, find technological solutions that can help us to 
navigate through this labyrinth of new issues that are being 
created, while mindful of the fatalities that are being created 
across our country because of the recombinant technological DNA 
that Chairman Genachowski and Secretary LaHood's jurisdictions 
are now bringing to our attention.
    We thank you, both of you, for your work on this issue.
    Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Markey.
    The gentleman from Louisiana, Mr. Scalise, is recognized 
for 2 minutes.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman.
    With the technological advancements in wireless electronic 
communications, we are now enjoying greater use of our cell 
phones and are communicating in ways never imagined. These 
advancements include hands-free devices, as well as vehicles 
with built-in phones, both of which have improved our ability 
to communicate. But even with all of these advances, drivers 
still face countless distractions when behind the wheel.
    Mr. Chairman, I appreciate the importance of this issue, 
and I am glad that we are discussing the safety and health of 
the American people. However, I do regret that we are not here 
today discussing the single biggest health care issue in our 
country, the 1,990-page government takeover of health care that 
we will likely be voting on in the next week.
    Our committee has yet to have a hearing on the recently 
filed bill that will jeopardize health care for the vast 
majority of Americans, nor have we had the opportunity to ask 
direct questions about the bill to Health and Human Services 
Secretary Sebelius, the very Cabinet official who will oversee 
this trillion-dollar government run takeover of health care.
    Mr. Chairman, Speaker Pelosi's latest bill spends over $1 
trillion on a government takeover while adding $700 billion in 
new taxes on families and small businesses and imposing $500 
billion in cuts to Medicare.
    And, even worse, changes are still being written behind 
closed doors where Speaker Pelosi and the Democrats running 
Congress are brokering deals and employing budget gimmicks to 
conceal the true cost of the bill, which led the Wall Street 
Journal earlier this week to call the new health care bill 
``the worst bill ever''--I quote--and decried the massive 
taxes, spending and what the Wall Street Journal called, quote, 
``dishonest accounting.''
    This is all being done at the expense of the American 
people who, if this legislation is enacted, will face rationed 
care, lower quality, higher premiums and hundreds of billions 
in new taxes at a time when our economy can least afford it, 
including a new health care czar and unprecedented government 
control of medical care.
    Mr. Chairman, again let me say I think it is a disservice 
to the American people if we do not hold a formal hearing on 
the 1,990-page government takeover of health care that Speaker 
Pelosi filed this week, and we may be voting on in the next 
week.
    I would like to welcome our witnesses here today, and I 
yield back.
    Mr. Boucher. Thank you very much, Mr. Scalise.
    The gentleman from Washington State, Mr. Inslee, is 
recognized for 2 minutes.
    Mr. Inslee. Thank you. Obviously, if you look at the 
numbers, the number of Americans killed by distractions may 
exceed September 11th every year. This is obviously a serious 
issue.
    I appreciate the Chair having this committee hearing. The 
one thing I hope we look at it and I will look forward to: the 
witnesses in trying to distinguish and parse out the types of 
distraction--visual, auditory or textual, and cognitive. And 
the reason I note that is that I think where we may be heading 
is a way to try to reduce the first two. But the cognitive is 
one that is going to be something that--I think Americans want 
to maintain the right to talk to people in their car, and I 
suspect they are going to want to maintain the right to talk to 
people out of their car once we can give them hands-free 
systems that do not either physically detract them from using 
their hands or visually detract them from using their eyes; and 
I suspect that is where we are going to end up.
    So I will be very interested in any of the testimony trying 
to distinguish the source and nature of that distraction that 
allow this technology to move forward. Thank you.
    Mr. Boucher. Thank you, Mr. Inslee.
    The gentleman from Ohio, Mr. Space, is recognized for 2 
minutes.

OPENING STATEMENT OF HON. ZACHARY T. SPACE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Space. Thank you, Mr. Chairman. And I would like to 
thank Chairman Rush, Ranking Members Radanovich and Stearns, as 
well as our witnesses.
    Mr. Chairman and Mr. Secretary, welcome, and thank you for 
your appearance today and for your attention to this issue, 
which is of considerable concern. I have two kids who are both 
college age, and I have to say, I am alarmed and struck by the 
findings and your anticipated testimony on just how dangerous 
texting is, specifically for young people. Certainly, I can't 
imagine losing a family member to a distracted driver, as Mr. 
Teater has, but certainly, I hope that our work here today will 
help bring attention to and help us come up with some solutions 
for this pressing problem.
    I come from Ohio, and Ohio does not have a law banning 
texting or even using a cell phone, even teenagers using cell 
phones. I think we have got a long way to go.
    But we are making some progress. ODOT, under its Director, 
Jolene Molitoris, recently held a mini safety summit on 
distracted driving, and I think we have made some significant 
progress there. What I think we have to do is balance out what 
some of our colleagues have referred to today as States' rights 
with what I believe to be a compelling need for public safety. 
And my colleague from Washington, Mr. Inslee's reference to 
handheld devices--not handheld, but hands-free devices, voice 
activation, certainly represents an attractive avenue. And I 
only ask that when these issues are considered, we factor in 
the needs of rural America as well, where we spend a lot more 
time in our cars than they do in many urban areas.
    Again, I would like to thank both panels--Mr. Largent, nice 
to see you again--for your time here today. And I yield back my 
time. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Space.
    The gentlelady from Ohio, Ms. Sutton, is recognized for 2 
minutes.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Mr. Chairman. And thank you for 
holding today's hearing on this issue that is clearly affecting 
so many lives throughout our Nation--distracted drivers.
    We have all seen the drivers on the phone next to us; and 
we have all been stuck behind a driver who fails to see the 
light has turned green, and it is because they are sending a 
text. Or, the other day I was behind a driver who failed to 
move when the light turned green; and as she turned, I saw that 
she was holding a bowl of food--a bowl of food--that she was 
eating at the same time she was driving.
    Some of us have known someone whose life has been disrupted 
because of a distracted driver. And trends and technology have 
only added to the number of distractions facing our drivers. 
And so there is growing concern about the risk associated with 
drivers' use of cell phones and Internet technologies, texting 
and other devices that are brought into vehicles. And the use 
of these devices does pose a serious safety risk, not only for 
the driver, obviously, but for other drivers and pedestrians 
and passengers and bicyclists.
    You know, not too long ago my husband, who was walking our 
dog on a quiet neighborhood street, was hit by a car, by a 
distracted driver. And although he wasn't badly injured, it was 
certainly a wake-up call, and it was pretty startling. And if 
they had hit my dog, he probably would have been killed, and 
then there would have been a lot of problems. So we clearly 
need to act.
    I would like to applaud my friend, Secretary Ray LaHood, 
for holding a summit on this topic and for his leadership on 
this and so many other issues.
    In Ohio, the Department of Transportation Director, Jolene 
Molitoris, has held a summit also to explore ways to prevent 
texting while driving. I am interested in hearing from the 
witnesses today, from researchers and safety advocates and the 
industry and the administration, about how we should pursue 
this very complicated problem of distracted driving and what we 
need to do to prevent and guard against the poor safety results 
that occur when we allow distracted drivers to persist.
    And I yield back.
    Mr. Boucher. Thank you very much, Ms. Sutton.
    The gentlelady from Florida, Ms. Castor is recognized for 2 
minutes.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Thank you, Chairman Boucher and Chairman Rush, 
very much for calling this important hearing on distracted 
driving.
    I would like to thank Secretary LaHood and Chairman 
Genachowski. You all have been very proactive. Right off the 
bat, you have taken very seriously the significant public 
safety threat that distracted driving poses to families all 
across America.
    It is a big problem in my home State of Florida. And there 
are many sad stories from all across the country. But one that 
hit home a year or so ago in Saint Petersburg, Florida, where a 
young man named Davin Dyslin was working. He checked out of 
work, got in his truck, left. He realized that he forgot to 
clock out, and as he was preparing to turn around, his cell 
phone went off. He reached down to get it.
    At the same time, he didn't realize he barreled right into 
a tanker truck, and the tanker had 8,500 gallons of gasoline in 
it. Though, mercifully, it did not ignite, Davin broke six 
ribs, his nose, a bone in his back and then was in a coma and 
intensive care for a few days.
    He was incredibly lucky. He lived, and he did not take 
anyone else's life.
    But in just the statistics for 2007 in Florida, 2,000 
Floridians died due to distracted driving. Florida does not 
have a law banning cell phone use while driving or texting, 
unlike many other States and the District of Columbia. This may 
explain partly why we have so many deaths on our highways.
    Last year the State legislature had a big knock-down-drag-
out fight over this. Tried to pass a law, but they were unable 
to come to an agreement. I hope they will revisit it and I hope 
we can examine solutions here.
    But I would also like to make a public plea to parents to 
set a good example for their kids. When they drive and they 
have their children in the car, they need to be sure that they 
are not unnecessarily on their cell phone and are not texting, 
themselves, so the kids learn the right habits.
    There is a long history in this body of enforcing national 
highway safety standards by using them as conditions for 
highway funding. That is the method by which we raised the 
drinking age to 21. That is how we enforced the national speed 
limit. I will be interested to hear all of the witnesses' 
opinions as to whether we should do that in this case, in light 
of the research that shows equivalence between distracted 
driving and drunk driving.
    Thank you. I yield back.
    Mr. Boucher. Thank you very much, Ms. Castor.
    The chairman of the Energy and Commerce Committee, the 
gentleman from California, Mr. Waxman, is recognized for 5 
minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    Welcome our witnesses today. Good to see you both.
    I want to thank Chairmen Boucher and Rush for convening 
this joint hearing on a compelling topic. Driver distraction, 
stemming from the use of wireless and other technological 
devices, is a risk we all face in every mode of transportation 
as drivers, passengers, pedestrians and, for many, as parents.
    Just recently, we all read about two commercial pilots who 
lost track of time and overshot the Minneapolis airport by 150 
miles because they were busy looking at personal computers. 
Thankfully, the passengers on that trip arrived safely.
    The same cannot be said for the 25 commuter rail passengers 
who were killed in September 2008 in my congressional district 
when a Metrolink commuter train and a freight train collided 
head on in Chatsworth, California. While that Chatsworth crash 
remains under investigation, the National Transportation Safety 
Board has focused in part on dozens of cell phone text messages 
received and sent by the Metrolink engineer up to 22 seconds 
before the crash.
    Today's hearing focuses on drivers' use of devices built in 
or brought into the passenger vehicles.
    Secretary LaHood, I want to thank you for your leadership 
and vision in recognizing the scope of this problem and 
organizing the recent distracted driving summit. I particularly 
want to commend you for your role in working with President 
Obama, who issued an executive order barring executive branch 
employees from texting while driving. It affects millions of 
Federal workers and demonstrates this administration's 
commitment to this issue. Your continued focus will be 
essential for keeping up that momentum.
    And I also want to thank and commend Chairman Genachowski 
of the FCC for offering the expertise of his agency to inform 
the committee about where technology is headed and what the 
communications industry can do to promote responsible use of 
these devices. Your testimony gives us the opportunity to 
better understand the research, legislative, educational and 
technological solutions that are available to address 
distracted driving and save lives on our roads and highways.
    And while my next comment does not pertain to the subject 
of today's hearing, this is the first time I have seen you 
since the FCC's release of the notice of proposed rule-making 
for preserving the open Internet, and I want to take this 
opportunity to compliment you on the process you are using for 
this rule-making and for your commitment to data-driven 
decision-making. As you know, I am a proponent of strong net 
neutrality rules, and I believe we are going to get a better 
rule as a result of your open and thoughtful approach.
    I also want to thank our second panel of experts, including 
David Teater from the National Safety Council, who brings the 
unique perspective of a parent who tragically lost his 12-year-
old son to a driver who ran a red light while distracted by a 
phone conversation. And I am sorry for his loss, and I hope our 
work here today will prevent further tragedies.
    Thriving innovation in the technology sector is generating 
robust consumer demand for portable music, video, texting, 
phone, GPS and Internet capabilities. The increasing 
availability of Bluetooth, Wi-Fi signals and voice-activated 
systems to enable these devices in cars forces us to consider 
the challenges and opportunities these technologies may pose 
for safe driving.
    There is disagreement among researchers and among our 
panelists as to how and whether distraction from these 
technologies can be effectively measured and minimized. One key 
outstanding question is whether hands-free devices are any 
safer than handheld, and whether hands-free laws have a 
positive impact on driver safety. New research and development 
today, including an upcoming 2,000-car naturalistic driving 
study, offers an unprecedented opportunity to resolve some of 
these disputes.
    Strong research is essential for forming public policy. I 
believe we are at a critical juncture that requires an all-
hands-on-deck approach, all-hands-on-the-steering-wheel 
approach, from government industry, academics and the driving 
public. What we have learned from decades-long campaigns to 
promote seatbelt use and combating drunk driving is that driver 
behavior is hard to change.
    But strong laws, through research, consistent enforcement, 
creative education, innovative technology and industry 
participation, are essential ingredients for success. I welcome 
our witnesses and appreciate their coming forward in such a 
helpful manner to help us address this very critical safety 
issue.
    Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Waxman.
    The gentleman from Pennsylvania Mr. Pitts is recognized for 
2 minutes.

   OPENING STATEMENT OF JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman.
    Thank you for holding this hearing on safety issues caused 
by drivers distracted by wireless and electronic communication 
devices. I think we all agree that distracted drivers are 
impediments to road safety. The National Highway Transportation 
Safety Administration estimates that 25 percent of crashes 
involve some form of distraction.
    While it is important to keep in mind that this statistic 
encompasses all forms of distraction and not just electronic 
and wireless device distraction, the rise in electronic and 
wireless device usage has introduced new traffic safety 
challenges. Texting while driving is particularly concerning, 
as the driver is manually, visually, and cognitively 
distracted.
    I am pleased to hear that several wireless carriers have 
taken it upon themselves to initiate a number of public 
education campaigns to increase the level of awareness on the 
correlation between texting and distracted driving.
    Twenty-one States and the District of Columbia have passed 
legislation banning text messaging while driving. In fact, some 
States have gone further and have prohibited all drivers from 
talking on handheld cell phones while driving.
    As I am sure we will hear in today's testimony, distraction 
from electronic and wireless devices can take many forms. And I 
support sensible safety requirements.
    I welcome our distinguished witnesses today. I look forward 
to hearing from our witnesses regarding this important issue. 
And I yield back.
    Mr. Boucher. Thank you, Mr. Pitts.
    The gentleman from Texas, Mr. Green, is recognized for 2 
minutes.
    Mr. Green. Thank you, Mr. Chairman. I ask unanimous consent 
my full statement be placed in the record.
    Mr. Boucher. Without objection the statements of all 
Members will be placed in the record.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. I want to thank both our chairs for calling this 
hearing on distracted drivers. And I guess, as practicing law, 
I would probably say my statement is going to be against 
interest, Mr. Chairman, because I think every one of us up here 
and probably everyone in the audience is probably guilty of the 
concerns we have. In fact, on the way in this morning, my wife 
pointed out that a lady next to us in traffic was actually 
putting on her eye make-up and had her whole kit or whatever 
there sitting there.
    And most of these laws come from our State legislature. I 
know, in Texas, we, a few sessions ago, passed legislation on 
new drivers, teenage drivers. We this last session dealt with 
public school zones. And so you see the pendulum moving there.
    I guess my interest was that, even though I use my 
BlackBerry and my cell phone literally all the time, I know it 
is dangerous. And so I think I need a law saying not to do it. 
But historically, we depend on our States for doing that.
    And there are things that are really useful. I know GM has 
the OnStar. Ford has a provision that they can do in their SYNC 
that is successful, so there are things that we can do that are 
hands-free. But I think I have seen the studies like we will 
probably hear today that, even if it is hands-free, it still 
distracts you from your eyes on the road. And so I want to 
thank our first panel and our second panel, particularly our 
first panel because both the Secretary of Transportation and 
our Chair of the FCC, I have had the opportunity the last 
couple of weeks to talk with each of you. I appreciate the 
relationship that we have.
    And, Chairman Waxman, I may disagree a little bit on the 
net neutrality, but hopefully, we will get there, that all of 
us can support.
    But again, welcome you, and thank you, Mr. Chairman.
    [The prepared statement of Mr. Green follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.006
    
    [GRAPHIC] [TIFF OMITTED] T4850A.007
    
    Mr. Boucher. Thank you very much, Mr. Green.
    The gentleman from Illinois, Mr. Rush, the chairman of the 
Consumer Protection Subcommittee, has arrived, and I would ask 
if he would care to make an opening statement.
    Mr. Rush. Mr. Chairman, I waive an opening statement and 
submit it for the record in the interest of time.
    Mr. Boucher. Thank you very much, Mr. Rush.
    The gentlelady from Illinois, Ms. Schakowsky, is recognized 
for 2 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I want to welcome both witnesses, but I 
want to give a special acknowledgement to my former colleague 
from Illinois and friend, Ray LaHood, and congratulate him on 
his leadership.
    In Illinois, according to the Illinois Department of 
Transportation, cell phone distractions were listed as either 
the primary or secondary cause of more than 1,000 accidents. 
However, serious and fatal accidents don't just happen on the 
highways and city streets. They also happen in our driveways 
and parking lots, often due to distractions.
    On Monday, I participated in a press conference with five 
families who had lost or nearly lost a child due to power 
windows. In one case, a mother pulled into the driveway of her 
home and put up her window to keep out the impending rain. She 
hadn't noticed that her 5-year old had unbuckled his seat and 
stuck his head out the window. And by the time her daughter 
alerted her to the situation, the boy had already turned blue 
and required resuscitation. That child survived, but not all 
families have been so lucky.
    I have an excerpt from the Federal Register that reads, 
playing with the controls of power-operated windows can cause 
death through strangulation and other types of injury. Despite 
extensive publicity given to the National Highway Safety 
Bureau's Public Advisory, tragedies resulting from accidental 
operation of power windows are still being reported. This is 
August 1969--1969--and we are still seeing so many thousands 
of, if not millions, of injuries and some deaths. So NHTSA has 
proposed a rule that is inadequate. And as we have Secretary 
LaHood here today I do intend to ask him about that proposed 
rule.
    Thank you and I yield back.
    Mr. Boucher. Thank you, Ms. Schakowsky.
    The gentleman from North Carolina, Mr. Butterfield, is 
recognized for 2 minutes.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much.
    I, too, want to thank you Chairman Boucher and Chairman 
Rush for convening this important hearing and thank the two 
witnesses for their testimony today. I think I know Secretary 
LaHood just a little bit better than Chairman Genachowski, but 
welcome to both of you.
    I don't come to this hearing, Mr. Chairman, with clean 
hands. I have been a culprit in this whole idea of texting 
while driving. Several months ago, I made a very deliberate 
decision that I was going to stop doing so, and I have done so.
    In my prior life, I was a trial judge and was one of the 
first judges in my State to have technology on the bench, and I 
found myself being distracted from court proceedings because I 
would read e-mail and do research there on the bench. And after 
several months of doing that, I even stopped doing that on the 
bench.
    And so this is a real issue, a real issue not only for 
drivers but those who hold critical roles in our work. And so 
thank you for your attention and thank you for convening this 
hearing, and I look forward to changing the law so that we can 
protect the public as we go forward.
    One final story. I was riding with a friend a couple of 
years ago, and a teenager was in front of us. And she was 
driving and talking on her cell phone, and my friend said, that 
young teenager needs to put that telephone down and pay 
attention to what she is doing. And then several minutes later, 
his cell phone rang, and he began a conversation on his cell 
phone. And so I reminded him that he had just criticized the 
young lady in front of him. And his response was, well, I am 
conducting business; she was just having a casual conversation.
    But we all find excuses to defend our behavior, but this is 
a subject that we must deal with.
    So thank you so very much. I yield back the balance of my 
time.
    Mr. Boucher. Thank you very much, Mr. Butterfield.
    That concludes opening statements by members of the two 
subcommittees.
    And we welcome now our very distinguished first panel of 
witnesses. Our former colleague from the State of Illinois, the 
distinguished gentleman, Ray LaHood, who is now the Secretary 
of the United States Department of Transportation; and also the 
Chairman of the Federal Communications Commission, Mr. Julius 
Genachowski.
    We are honored to have both of you with us this morning and 
look forward to your comments.
    Without objection, your prepared written statement will be 
made a part of the record, and we would welcome your oral 
summaries of approximately 5 minutes.

 STATEMENTS OF THE HONORABLE RAY LAHOOD, SECRETARY, DEPARTMENT 
   OF TRANSPORTATION; AND THE HONORABLE JULIUS GENACHOWSKI, 
          CHAIRMAN, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Boucher. And Secretary LaHood, we are pleased to begin 
with you.

             STATEMENT OF THE HONORABLE RAY LAHOOD

    Secretary LaHood. Well, Chairman Boucher, and, Chairman 
Rush, thank you.
    And to Ranking Member Radanovich and Stearns, our thanks to 
you also for the opportunity to appear today to discuss the 
important issue of distracted driving. Transportation safety is 
the Department's highest priority. Distracted driving is a 
dangerous practice that has become a deadly epidemic.
    Our research shows, unless we take action now, the problem 
is only going to get worse, especially among our Nation's 
youngest drivers. This trend distresses me deeply, and I am 
personally committed to reducing the number of injuries and 
fatalities caused by distracted driving.
    About 4 weeks ago, the Department of Transportation hosted 
a summit to help us identify, target, and tackle the 
fundamental elements of the problem. We brought together over 
300 experts in safety, transportation research, regulatory 
affairs, and law enforcement. More than 5,000 people from 50 
States and a dozen countries participated in the summit via the 
Web. We heard from several young adults who had emerged--who 
had engaged in distracted driving and who discussed the 
terrible consequences of their actions. We also heard from 
several victims of this behavior whose lives have been changed 
forever. Mothers and fathers who lost children and children who 
lost a parent told us their stories.
    And I want you to know, I promised these families I would 
make this issue my cause. A unanimous conclusion of the summit 
participants is that distracted driving is a serious and 
ongoing threat to safety. This conclusion is borne out by the 
facts. Our latest research shows that nearly 6,000 people died 
last year in crashes involving a distracted driver, and more 
than half a million people were injured.
    This is not a problem caused by just a few negligent 
drivers. To the contrary, AAA Foundation for Traffic Safety, a 
nonprofit educational and research organization reports that 67 
percent of drivers admitted to talking on the cell phones 
within the last 30 days while behind the wheel and 21 percent 
of drivers indicated they had read or sent a text or e-mail 
message, a figure that rose to 40 percent for those drivers 
under the age of 35. On any given day last year, an estimated 
800,000 vehicles were driven by someone who used a handheld 
cell phone at some point during their drive.
    This problem is not just confined to vehicles on the road; 
it affects all modes of transportation. Experts agree there are 
three types of distraction; visual, taking your eyes off the 
road; manual, taking your hands off the wheel; and cognitive, 
taking your mind off the road. While all distractions can 
adversely impact safety, texting is the most troubling because 
it involves all three types of distractions.
    For all of these reasons, at the conclusion of the summit, 
I announced a series of concrete actions that President Obama's 
administration and DOT are taking to put an end to distracted 
driving. The President's Executive Order banning texting and 
driving for Federal employees is the cornerstone of these 
efforts. It sends a strong unequivocal signal to the American 
public that distracted driving is dangerous and unacceptable. 
The Executive Order prohibits or bans Federal employees from 
engaging in texting messages while driving government-owned 
vehicles; when using electronic equipment supplied by the 
government while driving; and three, while driving privately-
owned vehicles when an official--when on official government 
business.
    The ban takes effect government-wide on December 30th, this 
year. However, I have already advised all 58,000 DOT employees 
that they are expected to comply with the order immediately.
    Meanwhile, the Department is taking several actions to 
address distracted driving. And I am pleased to announce today 
that DOT and our friends at FCC are launching a joint effort to 
evaluate technology that may help curb distracted driving. Our 
Department will work together to evaluate technology-based 
solutions to the problem and coordinate consumer outreach in 
education.
    I look forward to working with the FCC Chairman 
Genachowski, who will help us take advantage of FCC's technical 
expertise. In addition, the Department has awarded 
demonstration programs in two States with handheld cell phone 
laws, New York and Connecticut, to test the impact of high-
visibility law enforcement action on community compliance with 
these laws. We will evaluate these programs and report the 
results in about 18 months. This is taking place in Syracuse, 
New York, and Hartford, Connecticut. We hope this approach will 
prove as effective in reducing distracted driving as it has 
been in reducing drunk driving and increasing seatbelt use.
    These efforts will build on steps already under way. For 
instance, 1 year ago, we began enforcing limitations on texting 
and cell phone use throughout the rail industry. We are taking 
the next step by initiating three rulemakings or enforcements: 
one, codifying restrictions on the use of cell phone and other 
electronic devices in rail operations; two, to consider banning 
texting messages and restricting the use of cell phones by 
truck and interstate bus operators while operating vehicles; 
and three, disqualifying school bus drivers convicted of 
texting while driving from maintaining their commercial 
driver's license. We will work aggressively and quickly to 
evaluate regulatory options and initiate rulemaking as 
appropriate.
    In addition, I have encouraged our State and local 
government partners to reduce fatalities and crashes by 
identifying ways that States can address distracted driving.
    To be sure, these measures are the beginning, not the end, 
to solving the problem. Drivers must take personal 
responsibility for their actions when they are behind the 
wheel. Since my time, I have gone over, the rest of this will 
be in the record, and I look forward to your questions.
    [The prepared statement of Mr. LaHood follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.008
    
    [GRAPHIC] [TIFF OMITTED] T4850A.009
    
    [GRAPHIC] [TIFF OMITTED] T4850A.010
    
    [GRAPHIC] [TIFF OMITTED] T4850A.011
    
    Ms. Schakowsky [presiding]. Thank you, Secretary LaHood.
    Mr. Genachowski, please.

         STATEMENT OF THE HONORABLE JULIUS GENACHOWSKI

    Mr. Genachowski. Thank you.
    And thank you to Chairman Boucher and Rush, and Ranking 
Member Stearns and Radanovich for the opportunity to testify on 
this important topic.
    I would like to commend Secretary of Transportation Ray 
LaHood for his excellent statement and his leadership on this 
issue. As the Secretary indicated in his statement, the FCC and 
DOT will be partnering on a range of efforts to address this 
important issue, and I look forward to our agencies working 
together.
    This issue, as we have heard from many of the Members, is a 
personal one for so many of us. I have an 18-year-old myself, 
and I see how he and his friends incessantly text and use 
technology. There is a big part of me, obviously, that is 
excited about all of the opportunities of technology, but boy, 
do I worry when he gets behind the wheel and gets on the road. 
And it is a conversation that we have many conversations about. 
This is a very real topic with serious safety implications.
    Let me begin by giving some context to this serious problem 
and then describe some avenues the FCC is pursuing to be a part 
of this solution. First, text growth and wireless devices has 
been astronomic. In 1995, 34 million people subscribed to 
mobile phone service; in 2009, 276 million subscribers, and 
growing today. The vast majority of teenagers, four out of 
five, have mobile phones, as parents well know. Now, these 
technologies----
    Ms. Schakowsky. Is your mike still on.
    Mr. Genachowski. I apologize. Is it on now?
    Thank you.
    These technologies in some ways contribute to safety. When 
a car breaks down at night, when there is an emergency when you 
are on the road, there is obvious value to having a mobile 
device. At the same time, however, mobile devices, especially 
in cars, have had some unintended and dangerous consequences.
    We now know that mobile communication is leading to a 
significant increase in distracted driving, resulting in injury 
and loss of life. According to Triple A, nearly 50 percent of 
teens admit to texting while driving; 11 percent of all drivers 
on the road are holding an electronic device. That amounts, as 
we have heard, to over 800,000 distracted drivers at any given 
time.
    NHTSA reported in 2008 that driver distraction is the cause 
of 16 percent of all fatal crashes, 5,800 people killed; and 21 
percent of crashes resulting in an injury. That is over 500,000 
people injured. There is no way around it, this is an urgent 
problem that must be addressed.
    Now, I don't believe there is a single solution to this 
problem. All of us have a responsibility to tackle this issue; 
raising awareness, setting an example, pursuing other 
strategies, individuals, companies in the wireless base, as 
well as those of us in government. One necessary step is to 
work to develop a cultural norm that driving while texting is 
completely unacceptable.
    In this regard, I want to acknowledge that the industry 
trade association, CTIA, in cooperation with the National 
Safety Council has initiated a joint campaign with the slogan, 
``On the Road, Off the Phone,'' focused on educating teen 
drivers on the dangers of distracted driving. They have devised 
a Web site for parents, and they are pursuing other educational 
measures. I urge all carriers to support and be innovative with 
this and other campaigns.
    On the Federal level, I salute the leadership the President 
has shown in issuing his Executive Order that prohibits Federal 
workers from texting while driving. I applaud Secretary LaHood 
and the Department of Transportation for taking action to raise 
public awareness through an impressive coordinated effort, 
partnering with States and localities to encourage additional 
safety measures and initiating rulemakings to address the 
dangers of distracted driving.
    At the State level, as we have heard, 18 States have 
already made it illegal to text while driving. Putting the 
brakes on the distracted driving epidemic will require both 
dedication and creative thinking, and the FCC is committed to 
doing its part to address this growing crisis.
    At the FCC, I reenforce to agency employees the importance 
of complying with the President's Executive Order. I believe we 
can play an important and constructive role in being role 
models and in three critical areas.
    First, we can seek to identify and facilitate the 
developments of innovative technologies that could reduce the 
risk of distracted driving. We are already witnessing new 
technologies that could potentially be harnessed to generate a 
positive impact. We should explore a full range of technologies 
that could reduce or eliminate driver distractions.
    For example, some smart phones and other technologies will 
allow users to control their mobile devices in vehicle systems 
using their voices. There may be opportunities to use RFID 
sensor technologies in key chains that would disable selected 
functions in a driver's mobile device activated by the start up 
of their cars. These are technologies worth exploring.
    And to help address this issue, I am pleased to announce 
that the FCC will be partnering with the Department of 
Transportation to create a joint working group to identify and 
assess new technologies that could help prevent distracted 
driving. The DOT is already receiving numerous inquiries, as is 
the FCC, and we look forward to making progress.
    Second, the FCC can bring together industry groups, 
consumer, and consumer advocacy groups and other stakeholders 
to coordinate a much broader response to the challenges of 
distracted driving. We intend to work with all stakeholders on 
educational and awareness campaigns.
    And third, the FCC will itself pursue consumer outreach and 
education on distracted driving. Our Consumer and Governmental 
Affairs Bureau has already launched a Web site and has begun 
its educational effort. I see that my time is about to expire, 
so I can return to this during the questions.
    Let me say that we take this very seriously at the FCC. We 
see this as an area where the Department of Transportation and 
the FCC can work effectively together, where our agency with 
its expertise on communication can be a resource both to the 
Department of Transportation and to the committee as this 
important issue is explored.
    [The prepared statement of Mr. Genachowski follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.012
    
    [GRAPHIC] [TIFF OMITTED] T4850A.013
    
    [GRAPHIC] [TIFF OMITTED] T4850A.014
    
    [GRAPHIC] [TIFF OMITTED] T4850A.015
    
    Ms. Schakowsky. I thank both the witnesses.
    We will begin with questions. And I would like to begin.
    Secretary LaHood, I am not trying to change the subject 
here, but I was so moved by these families, some of whom lost 
children in power windows. And it is related to the issue of 
distraction. Often, they step out of the--the driver steps out 
of the car or is distracted in the car and doesn't notice what 
is going on with the windows.
    NHTSA, as it was required by the Cameron Gulbransen Kids 
and Transportation Act, did an investigation and proposed a 
rule, a rule that is just amazing. It says that, it says that 
there will be no cost to the rule that it proposed and that it 
will save exactly zero lives. That is the proposed rule. It 
says that only on windows that feature one touch or express-up 
closing will have to have this auto reverse in it. You would do 
it in elevators and garage doors and everything else.
    And so I wanted to ask if you believe that--if you have 
looked at that rule. If you haven't, I would certainly like to 
meet with you about that, and if you think that the rule that 
is proposed achieves the goal of child safety.
    Secretary LaHood. Well, I will say this, nobody is going to 
take a backseat to those of us at DOT for safety. That is our 
number one priority. It is now and always will be.
    Number two, I have seen the press release that you make 
reference to that you are involved in. And we will go back and 
look at the figures that are in that release and look at the 
study. I will be happy to meet with you.
    I have reviewed the rule. If I thought the rule was not 
going to meet the highest safety standards, I wouldn't have 
agreed with it. But, look, now there are additional statistics, 
and we will look at it. And we will be happy to meet with you 
about this.
    But I make no apologizes for the fact safety is our number 
one, that is what we care about. And if kids are going to be 
injured or if people are going to be injured by the fact that 
we don't have the right mechanics in the cars in the windows, 
we will look at that, and we will work with you on it.
    Ms. Schakowsky. OK, great. Because the window that they 
said, the kind of window that they said had to have auto 
reverses generally already have that technology, and they are 
generally only found in the driver's window. So we can talk 
further about that. Thank you.
    I wanted to ask you about the mind distraction, you talked 
about that, and what evidence there is, either one of you can 
answer, in terms of hands-free as compared to--obviously, 
actually texting is the worse--but is hands-free also, talking 
on the phone, a hazard?
    Secretary LaHood. Madam Chair, I would say this. I would 
say all of these things are a distraction. We have really 
focused on texting because it is an epidemic. Everybody in this 
room is hooked on cell phones. Teenagers are hooked on texting. 
Now, most of us, some of us, and I will include myself in this; 
I am not smart enough or good enough to be able to text and 
drive, but teenagers think that they can. And there are just 
too many examples of children killing their friends or injuring 
their friends trying to text while driving.
    But I say this, I say eating a hamburger, shaving, putting 
your make-up on, you know, any kind of distraction takes your 
eyes and hands and your ability to drive safely, any of these 
things do. But texting while driving is our focus because it is 
an epidemic and because it injures our teenagers and the people 
around them. But we are going to focus on all kinds of 
distractions. Hands-free is a distraction.
    Ms. Schakowsky. Did you want to add anything, Mr. 
Genachowski?
    Mr. Genachowski. No, I agree. I think there are a number of 
issues where it could be helpful to raise awareness to educate 
the public. But there is no question that the most pressing 
vital issue now is texting while driving. And it is also the 
area where we have the biggest opportunity to work together to 
create a cultural norm that it is completely unacceptable. 
There are a number of good suggestions that were made during 
the opening statements. We have heard of in these statements, 
there is no question that texting is a priority. It is the 
epidemic. It is also the one where I think we can do the most 
in the near term to shape a changed cultural norm.
    Ms. Schakowsky. Thank you. And I yield back.
    Mr. Stearns is recognized for 5 minutes.
    Mr. Stearns. Thank you, my colleague.
    Mr. Secretary, you mentioned in your opening statement that 
there are 6,000 fatal crashes involving distracted drivers. How 
many involved, of the 6,000, have actually, can you pinpoint to 
text messaging or distraction from electronic devices, such as 
cell phone?
    Secretary LaHood. I will get you the exact figure, but the 
majority of them. I don't have the exact figure, but I will be 
happy to get it for the record.
    Mr. Stearns. OK. Because I think it is important if we can 
talk about what the actual numbers would be. I mean when you 
talked about the three things of distraction; the visual, the 
manual, and the cognitive, I see this lots of times with my 
children when they have a stack of CDs on the front seat, and 
they take their mind off to go search through those CDs. And 
they search through, find them, look at them while they are 
driving and then put them into the CD player. And as mentioned 
by other people, ladies putting on make-up. You know, I 
oftentimes see people who have their dog in the front seat and 
the dog is going back and forth in the front seat while they 
are driving. So there are lots of things here. I agree that 
texting is a very serious thing.
    Are you advocating this morning that the Federal Government 
pass legislation much like the Schumer bill.
    Secretary LaHood. What I am advocating is working with 
Congress to eliminate this epidemic. And we are going to work 
with Congress on this. We know Congress is going to do 
something, and we are going to work with Congress. I am not 
here to endorse any bill today. But we need to do something 
about it.
    I will tell you this, Mr. Stearns. Ten years ago, people 
had no idea what .08 is, but they know what it is now. And 
people 10 years ago had no idea what ``Click It or Ticket'' 
was, but they know what it is now. They know that you need to 
get your seatbelt on, or you are going to get a ticket. And 
they also know that if your blood alcohol level goes above .08, 
you can't drive your car, and you will probably be arrested.
    Mr. Stearns. Reclaiming my time here.
    With the seatbelt, what we did was provide grants, and we 
didn't penalize the States with a 25 percent reduction in their 
transportation fees. So the Federal Government can take lots of 
steps to do this and not necessarily penalize States. In fact, 
based upon statistics, each State could develop its own 
legislation.
    Mr. Genachowski, I have a question for you. Is there some 
technology-wide or things that are happening that exist that 
could eliminate driver distraction? You know, we have seen this 
with voice-activated devices. To be sure, we want to allow the 
driver to have emergency communication with his cell phone for 
whatever reason, and we wouldn't want the person to be denied 
the use of the cell phone for emergencies. So do you see 
anything down the road about technology?
    Mr. Genachowski. We have seen, as you know, Mr. Stearns, 
tremendous innovation in the wireless base. I am an optimist on 
technology and its ability to contribute to solutions to 
problems like this.
    Smart phones are getting smarter. There may be ways that 
smart phone technology, applications on smart phones can be 
helpful. RFID technology can be helpful here. There is a 
question of how far to go, how to balance the various desires 
that we have.
    We know, at one end, we don't want anyone texting while 
driving. We also know that if someone has an emergency in a car 
where they are sitting still, that we want them to be able to 
call 911 or call their family. And I would--what we will do at 
the FCC working with DOT is begin to shine a spotlight on the 
different technologies that may be available and to see if 
there are ways to incentivize technologies, maybe increase 
incentives in the market to develop technologies that address 
the fundamental goal of safety.
    Mr. Stearns. And do you think, in your opinion, do you 
think the Federal Government has to do something with the 
legislation like the Schumer bill?
    Mr. Genachowski. We don't have a position on the 
legislation other than we want to be a resource for this 
committee in working on education and working on developing 
technologies. As the committee explores legislation, we will be 
a resource, particularly on the communications technology 
component of it.
    Mr. Stearns. Just to divert, I can't miss this opportunity. 
You and I have talked a little bit about network neutrality. 
And perhaps you could explain why you have decided to pursue 
network neutrality regulations without first conducting a 
market analysis.
    As you know, I sent you a letter on this hoping that the 
FCC would at least establish that there is a need for it before 
you issue a rule, and now you have a comment period, so I might 
not have an opportunity again. So I thought with my opportunity 
here, if you don't mind just commenting on, we are hoping that 
maybe you would answer my letter that I sent. I think it is 
three pages, and we had about almost 20 members of the Energy 
and Commerce sign it, and we are hoping that you will answer it 
and perhaps give us an idea why you couldn't conduct a market 
analysis before you consider a net neutrality rule.
    Mr. Genachowski. Mr. Stearns, the fundamental goal of this 
proceeding is to ensure that the freedom of the Internet is 
preserved. It is the principle of a free, unfettered 
deregulated Internet that causes us to proceed. Of course, as 
you know, we are at the beginning of a proceeding.
    An open Internet deserves an open proceeding. In this 
proceeding, we will be receiving lots of economic information 
and studies. The economic issues the expression issues, all of 
the issues will be focused on during the course of this 
proceeding. What we wanted to do was to make sure that we had 
an open process with full participation from everyone as we 
looked at this important issue for the country.
    Mr. Stearns. If possible, Madam Chair, just if you possibly 
could answer our question with maybe just your reply to it, 
that would be appreciated. Thank you.
    Ms. Schakowsky. And now our chairman emeritus, Mr. Dingell.
    Mr. Dingell. Thank you, Madam Chair.
    Again, Mr. Secretary, welcome back. Yes or no to this 
question: Are individual States doing a good job of adequately 
addressing distractions caused by drivers using technological 
devices? Yes or no?
    Secretary LaHood. Yes.
    Mr. Dingell. Does the Department of Transportation have 
sufficient authority with which to address distractions caused 
by drivers using technological devices? Yes or no?
    Secretary LaHood. Yes.
    Mr. Dingell. If not, are there improvements, or if so, are 
there improvements that should be made either by additional 
Federal statutory or regulatory action that would either change 
or supplant or add to State statutory and regulatory authority? 
Yes or no?
    And then, Mr. Secretary, I am going to ask you to submit to 
us a list of suggestions of what those things might be. This is 
not a trap, old friend.
    Secretary LaHood. Well, look, there are 18 States that have 
passed laws. I would like to really sort of, you know, see how 
we are going interact with those. And I will be happy to submit 
an answer for the record.
    Mr. Dingell. I will submit to you then a question in 
writing on this particular point.
    Secretary LaHood. Good. Thank you.
    Mr. Dingell. Because I don't want to load you down at this 
particular time.
    Now, Mr. Secretary, should the Congress choose to write a 
new statute relating to prevention of driver distraction caused 
by the use of technological device, should we adopt a measured 
approach? Should we have additional research? Should we look at 
the statistical and factual situation that we confront at this 
particular time or as it might change?
    Secretary LaHood. Look, I think good research, I think good 
statistics, I think all of these things, I think Congress is 
going to move forward with some bill. And we want to work with 
Congress on this, and we think we can help provide some good 
research, some good back-up information, and be a good 
resource.
    Mr. Dingell. The reason for my question, Mr. Secretary, you 
will remember we danced around on the question of seatbelts and 
air bags for a long time. And we rushed air bags with a result, 
and we came up with a situation which, frankly, killed people, 
particularly children, frail, elderly and small women and 
others who were vulnerable to the explosive impact of the 
opening of the bag. Do we need to do a little bit of work to 
understand more fully what needs to be done as we move into 
this question?
    Secretary LaHood. Yes.
    Mr. Dingell. Now, Mr. Secretary, is it necessary or would 
it be wise to create an inventory of technological devices 
whose use in vehicles leads to a driver's distraction?
    Secretary LaHood. Yes, and we are going to work with the 
FCC and the automobile industry to do that.
    Mr. Dingell. Would such an inventory be useful as a basis 
for Federal action to reduce driver distraction?
    Secretary LaHood. Yes.
    Mr. Dingell. Mr. Genachowski, welcome to you. What 
authorities does the Federal Communications Commission have 
related to prevention of driver distraction?
    Mr. Genachowski. Well, as you know, we have authority with 
respect to cell phones. I think our first focus is on education 
of consumers, making sure that we have the information about 
the technology and that we are providing to this committee as 
it does its work information on the area.
    Mr. Dingell. Of course, my reading of the Federal 
Communications Acts in their various iterations indicate to me 
that your powers lie not with regard to regulation to drivers 
but rather of dealing with the question of the suitability, 
efficacy, workability, and other things relative to the 
communications devices as opposed to regulating driver behavior 
or driver activities; is that correct?
    Mr. Genachowski. That is correct. And there are many areas 
in which communications devices and spectrum as it relates to 
safety is part of the FCC's work.
    Mr. Dingell. Now, this question, yes or no, and it will be 
followed by an additional question: Do you believe that the FCC 
should play a greater role in reducing driver distraction as 
caused by the use of technological devices? Yes or no?
    Mr. Genachowski. Yes.
    Mr. Dingell. All right. Now, what should that additional 
role be? In other words, what would you expect us to ask you to 
do, or what is it that you would suggest that you could or 
should do at the Commission?
    Mr. Genachowski. Be involved in raising awareness, 
education, focusing on the technologies that may be helpful in 
addressing this problem, bringing our expertise to bear with 
respect to technology devices and the industry to help address 
the public safety issue that has been presented here.
    Mr. Dingell. Now, Mr. Genachowski, what additional 
statutory authority would you need to become effective in 
carrying out the responsibilities of the Commission as you 
envision them?
    Mr. Genachowski. We at this point are not asking for any 
additional authority, and we are not proposing any specific 
rules. We want to be a resource to be helpful in education and 
helpful on technology.
    Mr. Dingell. I have the feeling, and I note my time is up, 
I have a feeling that you are neither suggesting nor requesting 
additional authorities for the Commission in terms of becoming 
a regulatory body in terms of driver behavior; is that correct 
or incorrect?
    Mr. Genachowski. I didn't hear the first part of the 
question, but we are not looking to become a regulator of 
drivers. We will stay focused on our communications authority.
    Mr. Dingell. Gentlemen, thank you for your courtesy.
    Thank you, Madam Chairman.
    Ms. Schakowsky. Thank you.
    Mr. Radanovich.
    Mr. Radanovich. Thank you, Madam Chairman.
    And I want to welcome Secretary LaHood back.
    And also Chairman Genachowski, thanks for being here. As we 
were talking and up on the panel a lot of us were relating a 
lot of incidences that occur in our personal history. I rolled 
up the window on my son's finger as I was taking him to ball 
practice. I almost went off the road once. In Yosemite National 
Park, there was a tragic accident many years ago where somebody 
was coming out of the tunnel, the Wawona tunnel, where the best 
view of Yosemite, and other people were pulled off enjoying the 
view, and he reached down to grab a pack of cigarettes and hit 
some ice, went off the road and killed about four people in a 
tragic accident.
    We all share this concern about driver safety. But there 
are a couple of things I have learned about in preparing for 
this hearing, and I am looking forward to the testimony in the 
next panel of a gentleman by the name of Tom Dingus, who is 
with Virginia Tech, and the transportation studies that he had 
because he has done what is called a relative crash or near 
crash risk-estimate chart that a lot of us will have the 
information, if you don't already.
    And I have noticed a couple of things, and I want to go 
over this and then perhaps ask two questions. One is that it 
charts all the different things that happen in a vehicle from 
anywhere between adjusting the radio to text messaging and what 
are the odds of these things, what is the increased probability 
that that activity is going to lead to an accident.
    And I find a lot of things that are grouped into one thing, 
and then one particular piece of behavior that stands out 
dramatically more than anything else, and that is text 
messaging. It seems that a lot of things are grouped into the 1 
to 10 times more likely that you will be involved in an 
accident; that includes applying make-up, reading, dialing 
handheld devices, handling CDs, adjusting the instrument 
panel--that is a tough one for me--talk, listening on a 
handheld, talking or listening to the radio, reaching for an 
object in the vehicle. All those are grouped around like a 
likelihood of 1 or 10 more times like or at risk of being 
involved in an accident or in a near accident.
    And what stands out as 23 times more likely to be involved, 
far and away beyond all the other ones, is text messaging. And 
I think a lot of us included in our opening statements about 
text messaging, how it tends to be, as Mr. Butterfield was 
saying, that a younger person is the one that is more inclined 
to be doing that. And they are more inclined to be distracted, 
far and away above at risk of being--of causing these 
accidents.
    And my fear is that, if you approach this issue from a 
wide-open perspective, that we are going to be looking at a 
driver's license--you know, people wanting to get a driver's 
license are going to be equal to an airline pilot getting an 
airline pilot and the driver's seat looking like a cockpit on 
an airline to try to achieve the results that you want to do.
    So I would like to note two things. And one is, from each 
of you, do you recognize the clear data difference between text 
messaging and then all the other behaviors or at-risk behaviors 
as being one that stands out dramatically? And the other would 
be if you were to weigh three things as approaches to what you 
think is more important, you know, from most important to least 
important, and that would be the three issues I think you would 
want this to deal with, and that would be public education, 
innovation, relying on auto manufacturers and/or communications 
folks through their design of their equipment and the new 
technology to deal with this problem or regulation; if I can 
get you to rate what would be the most important approach and 
what would be the least approach of public education, 
innovation and regulation and then get some sense of, do you 
recognize that it is text messaging that is by far and away the 
most at-risk behavior in the vehicle?
    Secretary LaHood. Well, Mr. Radanovich, as I said in my 
testimony, I think text messaging, distracted driving and text 
messaging is an epidemic. I believe that. That is why we had a 
2-day summit. That is why all of these people watched it on the 
Web and came to over 300 in person and heard the horror stories 
from parents and family members.
    Mr. Radanovich. My time is drawing down.
    Secretary LaHood. I think there are three things.
    Mr. Radanovich. Would you rate those? What do you think is 
the most important approach, Ray?
    Secretary LaHood. Educate, driver education. When you teach 
kids how to drive, you have got to make sure they put their 
seatbelt on and put their BlackBerry or their cell phone in the 
glove compartment.
    I think enforcement is important. I think under .08 and 
seatbelts, enforcement has worked. And I also think personal 
responsibility, we have to take personal responsibility when we 
get behind the wheel of a car.
    Mr. Radanovich. Thank you, Mr. Secretary.
    If I can get a reaction from Mr. Genachowski, too.
    Mr. Genachowski. I agree with the Secretary, and I add that 
focusing on technology innovation as part of the menu of 
solutions is important as well.
    Mr. Radanovich. All right. Fair enough. Thank you.
    Ms. Schakowsky. Ms. Eshoo.
    Ms. Eshoo. Thank you Madam Chairwoman.
    Thank you for your testimony. It is really great to see the 
two of you here.
    And I think it is an eloquent statement that you are both 
here because whatever is fashioned will not be successful 
unless there is a highly collaborative relationship between the 
two of you as the leaders of this and your agencies. So thank 
you.
    My question is, I mean, there are many good questions and 
suggestions that have been made. My question is, where do we 
put the limit on electronic device use? Have you given thought 
to that? I can't help but think of how far we have come with 
technologies in our country. And I always want to see 
innovation motivated by everything that we do and that we are 
the leaders in the world on it. So by no means do I want this 
effort to cut into what I just described.
    On the other hand, what many of our blessings are we know 
are a burden when it comes to driving, and more than a burden, 
it can be a disaster. Should this just be with handheld 
devices? What about the computer terminals in trucks? Should we 
be looking at the regulation of GPS use? I don't know how far 
you have drilled down on this, but if you have any thoughts 
about it, I would like your reactions.
    And then two things that I would like to state before you 
answer the question. First, to the Chairman of the FCC, I want 
to take this opportunity to thank you, Chairman Genachowski, 
for moving ahead with the net neutrality rulemaking, despite 
pressure not to and significant pressure not to. So I 
appreciate your work and your leadership on this. I think it is 
a highly important issue for our country.
    And to Secretary LaHood, you probably haven't seen this 
yet, but Senator Klobuchar and I just sent you a letter about 
our very straightforward legislation. It is a proposal that 
would require recipients of Federal funding under the Federal 
Surface Transportation Program to install broadband conduit as 
part of the construction. I call this affectionately, ``the 
ditch digging bill.'' I think it makes eminent sense. I think 
it is something that we have just completely--it is so common 
sense that we have left it out. I think it makes all the sense 
in the world, and we haven't done it. So I am not going to ask 
you to comment on it because you probably haven't seen the 
letter. It just went out. But I would like to hear back from 
you when you do.
    So, anyway, back to my question about where we place some 
parentheses around this, that we protect innovation, but how 
far should we go and if you have given any thought to this?
    Secretary LaHood. Well, I like your approach about putting 
fiber down. I think as we are doing all this stimulus, I mean, 
we are resurfacing, and we are redigging up. I mean, it makes a 
lot of sense.
    Ms. Eshoo. It really does. I mean why build and then tear 
it up, put it in and then resurface it again?
    Secretary LaHood. And particularly in rural areas where 
broadband is so important. It is the connection to the world to 
the rural areas. It makes a lot of sense.
    Ms. Eshoo. Good. I am encouraged. Good.
    Secretary LaHood. Look, I want to err on the side of the 
best safety that we can. And we are going to work with our 
friends at the FCC on this. But I don't think we should, there 
should be no distractions when we are driving a car; there just 
shouldn't be. We would save a lot of injuries and a lot of 
lives.
    Ms. Eshoo. Well, I appreciate your personal commitment to 
this. As you called it, this is a personal cause of yours, and 
that is going to go a long way for protecting people in the 
country.
    Mr. Chairman.
    Mr. Genachowski. I agree. And I would just add that--and I 
agree also on the ditches, as you know. Technology often has 
this feature over the course of American history; it provides 
extraordinary opportunities and benefits to the country, but it 
can have negative effects that come with it. It is true of the 
car itself.
    And so, over time, we as a country identify safety issues, 
and we mobilize to tackle it, whether it is drunk driving or 
seatbelts or child seats in cars. And over the course of 
experience with this, I think the core lesson for me is that 
the inevitability that technology will have great opportunities 
is true; that it will have down sides is also true; that we 
will address the down sides is not automatic.
    We have to do what the committee is doing today. We have to 
do what Secretary LaHood is doing and others here are doing to 
shine light on the dangers that are brought about by 
technology, focus on education, focus on how technology can be 
part of the problem, focus on how the government can be a role 
model and focus on all innovative ideas for how government 
action can contribute to a solution so that we have both 
continuing improvement and technology innovation, and that we 
tackle with real energy and moment the safety issues that can 
be presented by technology.
    Ms. Eshoo. Thank you very much.
    Thank you.
    Mr. Rush [presiding]. The Chair now recognizes the 
gentleman from Pennsylvania, Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you. Thank you, Mr. Chairman.
    Again welcome, Secretary. Congratulations on your marvelous 
service to our country.
    Mr. Secretary, you mentioned in your testimony a rule DOT 
is working on to restrict the use of cell phones by truck and 
interstate bus operators. Could you expand on that please?
    Secretary LaHood. Well, right now, if you are a truck 
driver, they have inboard computers, and they have other 
devices that they use to communicate either with their base or 
with other truck drivers. And we know that these are a huge, 
huge distraction, and so we are in the process of looking at 
this and trying to come up with a rule that can eliminate these 
distractions.
    Mr. Pitts. Would the use of hands-free devices be 
restricted as well?
    Secretary LaHood. That is something that we are looking at, 
and we are in the process of really evaluating that.
    Mr. Pitts. What about the use of radios, for instance, 
listening to a radio, would that be restricted?
    Secretary LaHood. Well, Mr. Pitts, look, we are looking at 
all of these things. These things are all distractions.
    Mr. Pitts. I suppose if you are talking to someone in the 
car, that could be a distraction.
    Secretary LaHood. That is correct. If you are eating a 
hamburger, if you are shaving, if you are adjusting your radio, 
if you are trying to adjust your GPS, all of these things are 
distractions. They take away from your ability to drive safely.
    Mr. Pitts. Now, I am sure you are familiar with H.R. 3535, 
the Alert Drivers Act. Subsection D requires the Secretary to 
promulgate minimum penalties for those using a handheld phone 
while driving. Could you give us a ballpark of what those 
minimum penalties might be if that bill became law in order to 
be effective?
    Secretary LaHood. I haven't really looked at that bill Mr. 
Pitts. And we are committed to working with Congress on the way 
forward here, but we are not endorsing any bills. I haven't 
looked at that, so I can't really give you----
    Mr. Pitts. Chairman Genachowski, in your testimony, you 
mentioned that we should explore a full range of technologies 
that can reduce or eliminate driver distraction. Could you 
expand on what some of those technologies might be? Also, if 
you would support mandatory implementation of any of those 
technologies in the future?
    Mr. Genachowski. The technologies that could potentially be 
helpful range from various voice-to-text technologies or other 
hands-free technologies. As Secretary LaHood mentioned, those 
don't eliminate distractions. They could reduce them, and it is 
an open issue how to tackle those.
    Other technologies could eliminate particular kinds of uses 
while driving. For example, one could imagine technologies that 
disable texting while a car is in motion. We are just at the 
beginning of working with Secretary LaHood and the Department 
to catalogue technologies that may be helpful. I think by 
shining a light on this, we help incentivize further innovation 
to drive solutions, and this kind of discussion is very 
helpful.
    Mr. Pitts. What has the FCC been able to learn from State-
level implementation of bans on cell phone usage or texting 
while driving?
    Mr. Genachowski. We are at the beginning of our data 
gathering and evaluation, so at this point no lessons to 
report.
    Mr. Pitts. Do you have any plans to gather more effective 
data on cell phone use or driving?
    Mr. Genachowski. We will work together with the Department 
of Transportation and as a resource to the committee to 
continue to improve the data that helps focus attention on the 
most serious problems and the best solutions.
    Mr. Pitts. Now, you mention raising public awareness. What 
kind of things are you talking about? What tools does the FCC 
plan to use to raise public awareness of the dangers of cell 
phone usage or texting while driving?
    Mr. Genachowski. The FCC has some experience engaging in 
outreach on consumer issues. It did it around digital 
television. It did it through a combination of working with 
private industry on developing a message; working in public-
private partnerships on getting that message out through 
various platforms. Online can be effective for some audiences 
but obviously not for all audiences, and there are various 
mechanisms for community outreach. And the more seriously one 
takes the need for education, the more one can do.
    Mr. Pitts. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Barrow, for 5 minutes.
    Mr. Barrow. Thank you, Mr. Chairman.
    In the interest of time I will waive questions.
    Mr. Rush. The Chair now recognizes the gentlelady from 
California, Ms. Matsui, for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman. I won't take all of 
that time because I know we have a vote, and most of it has 
been covered.
    But I want to ask you, Chairman Genachowski, because you 
mentioned in the testimony the FCC will pursue consumer 
outreach and education programs similar to your efforts with 
DTV transition and broadband plan. Now, what of the many 
education efforts can come from handset labeling? And what is 
the FCC's current role in labeling of wireless devices?
    Mr. Genachowski. Well, labeling will be something that will 
be looked at as part of an overall inquiry into what kinds of 
educational efforts would work best.
    Ms. Matsui. OK. Then, do you believe that the FCC has the 
ability to impose consumer-oriented labeling requirements 
without explicit statutory authorization?
    Mr. Genachowski. We haven't at this point studied the 
labeling issue. We are going to begin with a workshop on these 
topics very soon and we will look at all the issues.
    Ms. Matsui. OK. But if not--well, let's say, would you 
welcome Congress granting you that authority?
    Mr. Genachowski. We will work with you and the committee to 
provide the information that you need and to provide 
recommendations as we develop these.
    Ms. Matsui. OK. Thank you.
    And one more question for Secretary LaHood. I commend you 
on the 2-day summit on distracted drivers. And I particularly 
am very--I think it is great what the administration is doing 
regarding to ensure that school bus drivers do not endanger our 
youth. That is really particularly very important.
    Do you foresee a need for the Federal Government to step in 
here and really actually enforce this, particularly with the 
wide range of school districts and States involved in this?
    Secretary LaHood. We think enforcement has got to be part 
of the solution. And we know that there are a number of Members 
of Congress that have bills in the hopper, so to speak, and we 
are going to work with Congress on this. Enforcement works with 
.08 and ``Click It or Ticket.'' We know it works. It has to be 
part of the solution.
    Ms. Matsui. OK. Thank you.
    I appreciate that, and I yield back.
    Mr. Rush. The Chair thanks the gentlelady.
    There are the votes that are now occurring on the floor, 
and I think we have a little over 5 minutes.
    The gentleman from Texas, Mr. Green, your turn has come.
    Mr. Green. Mr. Chairman, I don't know how much time. You 
said there was less than 5 minutes on the floor.
    Mr. Rush. Well, would you want to wait and hold your 
questions.
    Mr. Green. What I would like to do is submit my questions 
both to the Secretary and to the Chairman, and that way we can 
dispense of it.
    Mr. Rush. Well, the Chair certainly appreciates it. Thank 
you so very much.
    Ms. Castor, before you leave, are you--there is a vote that 
is occurring, as you know. We will reconvene, and are you going 
to come back?
    Ms. Castor. I am going to try.
    Mr. Rush. All right. Well, you are listed as next.
    Well, there is a vote that is occurring, and there are at 
least one or two questions that they might have. There are four 
votes. So, as you know, they will probably be anywhere from 30 
to 40, 45 minutes. I am not sure if you have the time. There 
are only two or three more votes, so I will just ask those 
members to submit those questions in writing, so we won't hold 
you up.
    Secretary LaHood. Thank you, Mr. Chairman.
    Mr. Rush. And so we will dismiss this panel. We want to let 
you know how much we appreciate you coming in and sharing your 
testimony with us and answering questions.
    Secretary LaHood. Thanks for your leadership.
    I appreciate it.
    Mr. Rush. Well, thank you so much.
    Mr. Genachowski. Thank you, Mr. Chairman.
    Mr. Rush. Good seeing you again. We will recess the 
hearing, and we will reconvene the hearing in about 15 minutes 
after the last vote; 15 minutes after the last vote, the 
hearing will reconvene.
    [Recess.]
    Mr. Rush. We will reconvene as soon as I can get another 
member from this side of the aisle here. I think the ranking 
member is in the committee room there, so as soon as I can get 
the ranking member--he's here.
    All right, the committee is called to order for the purpose 
of hearing the second panel today. And the chairman is 
delighted to introduce the second panel. It is an esteemed 
panel, very knowledgeable and experts in their own areas. And 
the Chair is grateful, the subcommittee is grateful that you 
all would take the time out to be present to present your 
testimony and to be available for questions from the committee.
    I want to begin introductions by introducing, from my left, 
Mr. David Teater. He is the Senior Director of the National 
Safety Council.
    Seated next to Mr. Teater is Mr. Clarence Ditlow. Mr. 
Ditlow is the Executive Director of the Center for Auto Safety.
    Seated next to him is Mr. Robert Strassburger, and he is 
the Vice President of The Alliance of Automobile Manufacturers.
    And it is really a superb honor and a distinct privilege to 
welcome back to the committee that he served on when he was a 
Member of Congress, our friend, Mr. Steve Largent. Steve is the 
President and the CEO of the CTIA, The Wireless Association. 
Thanks so much, Steve. Always good to see you.
    And next to Steve--Mr. Largent--is Mr. Tom Dingus. He is 
the Director of the Virginia Tech Transportation Institute.
    And last but not least, the most superb witness that we 
have here in a lot of ways is Dr. Anne McCartt. She is the Vice 
President of the Insurance Institute for Highway and Auto 
Safety.
    Dr. McCartt, thank you so much.

STATEMENTS OF DAVID D. TEATER, SENIOR DIRECTOR, TRANSPORTATION 
  STRATEGIC INITIATIVES, NATIONAL SAFETY COUNCIL; CLARENCE M. 
  DITLOW, EXECUTIVE DIRECTOR, CENTER FOR AUTO SAFETY; ROBERT 
 STRASSBURGER, VICE PRESIDENT, VEHICLE SAFETY & HARMONIZATION, 
  THE ALLIANCE OF AUTOMOBILE MANUFACTURERS, STEVE M. LARGENT, 
 PRESIDENT AND CEO, CTIA--THE WIRELESS ASSOCIATION; THOMAS A. 
     DINGUS, Ph.D., DIRECTOR, VIRGINIA TECH TRANSPORTATION 
   INSTITUTE; AND ANNE T. McCARTT, VICE PRESIDENT, RESEARCH, 
        INSURANCE INSTITUTE FOR HIGHWAY AND AUTO SAFETY

    Mr. Rush. It is the practice of this subcommittee that we 
will swear in the witnesses. So would you please stand and 
raise your right hand.
    [Witnesses sworn.]
    Mr. Rush. Let the record reflect that the witnesses have 
all answered in the affirmative.
    And now the Chair would like to recognize Mr. Teater. Mr. 
Teater, you are recognized for 5 minutes in summation of your 
testimony, and the record will be open for 2 weeks for your 
full testimony to be a part of the record.
    And we would also like each and every one of you, if you 
would be cooperative with us and the committee members, some 
who would like to submit questions in writing to you, to fully 
respond within 7 days after you get the questions. We certainly 
would appreciate that.
    The Chair now recognizes Mr. Teater for 5 minutes.

                  STATEMENT OF DAVID D. TEATER

    Mr. Teater. Thank you, Chairman Rush, Ranking Member 
Stearns, members of the subcommittee. I appreciate the 
opportunity to testify.
    My name is David Teater. I am Senior Director of the 
Transportation Initiatives with the National Safety Council. I 
am also the father of Joe Teater. My son, Joe, was killed in a 
crash caused by a cell-phone distracted driver in Grand Rapids, 
Michigan, on January 20, 2004.
    Joe was a wonderful kid, always happy, always smiling. He 
was the spark plug of our family. He was the youngest of our 
three sons. As you can imagine, our lives have been changed 
forever. Not a day goes by or will go by that we won't miss 
him, every single day. It is impossible to explain in words 
what the loss of a child like that means to somebody.
    You know, maybe the worst part of this is, this tragedy was 
the result of a phone call. The young lady who ran a red light 
in broad daylight was speaking on her phone and looking 
straight out the windshield, and she didn't see the four cars 
and a school bus stopped in the other southbound lane for the 
red light, and she didn't see our vehicle, which was about the 
fourth or fifth car to cross through the intersection. It is a 
clear example of cognitive distraction, the distraction of the 
phone conversation.
    About a year after Joe's death, I started looking at the 
research on cell-phone distracted driving, and I was surprised 
at the large body of work that also existed in 2005 and the 
near-unanimous conclusion about how dangerous this activity is. 
I decided to leave the for-profit business world and advocate 
on behalf of others, like us, who have lost a loved one as a 
result of this new and rapidly escalating threat.
    My journey over the last 3 years has included multiple 
speaking engagements with safety, business, parent groups all 
over North America. I helped launch a start-up technology 
company that has developed a solution to cell-phone distracted 
driving. I have reviewed nearly all the research on this issue, 
and I regularly speak about the distraction of cognitive--the 
cognitive distraction.
    In January of this year, the National Safety Council became 
the first national organization to call for a ban on cell-phone 
driving, and they offered me the opportunity to come to work 
for them to lead that effort. And so I am now working, have 
been with the National Safety Council for 7 months, leading 
their efforts on distracted driving and teen driving.
    So how dangerous is cell-phone driving? Well, research from 
more than 75 peer-reviewed studies have clearly shown that 
using phones while driving is dangerous. Several studies have 
reported that the use of cell phones increases the crash risk 
by a multiple of four. These studies also found no difference 
in handheld versus hands-free devices.
    I was to talk this morning a little bit about the 
difference in distractions--cognitive, mechanical, visual. I 
would point out to the committee that we all understand, when 
we are visually and mechanically distracted, we don't know when 
we are cognitively distracted. It is actually mentally easier 
for me to have this conversation when I can look at you and see 
you're engaged and see if you're about to say anything than if 
I was trying to imagine all this on the phone while I was 
having this conversation.
    We've been driving vehicles for 100 years, been talking on 
phones for about 75. We've only combined those two activities 
to any great degree in the last 5 or 10 years. And we never 
understood the cognitive demand of a cell phone--of a telephone 
conversation. We understand that now.
    So how do we address the issue? Obviously, we do it through 
legislation enforcement, education and technology. We've talked 
a lot about legislation enforcement. I just want to point out 
we believe strongly at the National Safety Council that 
education will only work in the presence of good legislation 
and enforcement.
    For years, in the seatbelt and even drunk-driving 
campaigns, we worked hard just to educate people about how 
dangerous it was, but it wasn't until States passed laws and we 
combined the two and did high-visibility enforcement that we 
really started to make a difference. So we've got to have both.
    Even the National Transportation Safety Board has looked at 
this evidence, and they've put a policy in place banning all 
cell phone use for their employees. I think that's significant.
    The National Safety Council has 20,000 corporate members. 
We know that at least 500 of them have already looked at the 
science and said, This is dangerous, we can't have it, and 
they've put cell-phone driving policies in place, banning their 
employees from using all kinds of cell phones, handheld and 
hands-free.
    Lastly, I want to just talk about--I want to mention 
technology. Strong laws visibly enforced, combined with 
education, will help address this epidemic, except, please 
note, this is--and it was mentioned earlier--this is a unique 
distraction.
    It is very, very difficult for us to ignore a ringing 
phone. It is even probably more difficult for a teenager to 
ignore an inbound text message. There's a compelling, almost 
addictive nature of the demand that's put on us when that phone 
call or text message comes in.
    So laws will help. They'll start everything in the works. 
Education will help. But we really believe that this is an 
issue that needs to be addressed by technology.
    I have met with--the NSC has met with, and we are 
encouraging several entrepreneurial companies; there are at 
least eight of them out there that have great ideas, there are 
at least four of them that have demonstrable product available 
in the very near future. Three of these companies should be to 
market with very early versions in the next few months. One 
company has had their technology tested on one of the large 
wireless operators, and the technology test was successfully 
passed.
    These products are out there. They need to be encouraged. 
The wireless industry, sitting here at this table, the auto 
industry sitting here at this table and government agencies 
like the FCC, with proper engagement, can dramatically shorten 
the time to market for these lifesaving technologies. These 
small companies are finding, like most start-ups, that they're 
challenged with issues of capital and getting the attention of 
the large wireless operators, auto manufacturers, just getting 
phone calls returned.
    So I think, of all the things that this committee might do, 
that could be the best is to encourage attention given to these 
technologies and get them to market. Some of them are just 
amazing. I don't have time to get into them now. But some of 
them even involve safe forms of communication. They don't just 
shut the phone off.
    The 20-year-old woman who ran the red light causing the 
crash that killed my son, she was on the phone with her church 
at the time where she volunteered for kids my son's age. She 
was recently married, looking forward to leaving for basic 
training with her husband, who had just enlisted in the United 
States Air Force. Obviously, her life has been ruined as well 
as ours.
    She was a good person. I am absolutely convinced that if 
she knew what I know today about how dangerous this activity 
is, or if there was a law in Michigan at the time prohibiting 
cell phone use, she would not have been on the phone and my son 
would be alive today.
    There's no phone call, e-mail or text message worth a human 
life. So, thank you.
    Mr. Rush. Thank you very much.
    [The prepared statement of Mr. Teater follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.016
    
    [GRAPHIC] [TIFF OMITTED] T4850A.017
    
    [GRAPHIC] [TIFF OMITTED] T4850A.018
    
    [GRAPHIC] [TIFF OMITTED] T4850A.019
    
    [GRAPHIC] [TIFF OMITTED] T4850A.020
    
    [GRAPHIC] [TIFF OMITTED] T4850A.021
    
    [GRAPHIC] [TIFF OMITTED] T4850A.022
    
    Mr. Rush. The Chair now recognizes Mr. Ditlow for 5 minutes 
for an opening statement.

                STATEMENT OF CLARENCE M. DITLOW

    Mr. Ditlow. Mr. Chairman, Representative Stearns, thank you 
for the opportunity to testify today.
    The Center for Auto Safety supports Federal regulation on 
the technology of cell phones and other communication devices, 
and we support State enforcement programs. We think a 
combination of the two must go forward.
    And in that regard, when you look at technology, some of 
the devices are already integrated into the vehicle. And in 
2007, the Center petitioned NHTSA to issue a safety standard 
that would disable devices when the car is shifted out of park 
into gear. NHTSA denied our petition.
    But what we found out was that we had missed a huge 
opportunity to advance the cause for safer driving involving 
cell phones and communications devices. In 2008, we learned 
that NHTSA had done a study in 2003 addressing this.
    So we filed a Freedom of Information Act saying we'd like 
to get all the records showing what you considered earlier and 
what you have to demonstrate the hazards. NHTSA denied the 
request.
    And one appeal and one lawsuit later, in 2008, we found 
that the government had done, had withheld hundreds of pages of 
documents on the hazards of cell phones and other technological 
distractions. And Secretary Mineta had before him a plan to go 
forward, much like Secretary LaHood has today on this very 
issue. But they not only withheld and actually took back all 
the copies of their research and reports, but they disbanded 
the program. The General Accounting Office has documented this.
    So the tragedy is, we lost 6 years in which we could be 
doing what we could be doing today. And Secretary LaHood, to 
his credit, with the National Driving Summit has moved forward 
on this.
    The President's order banning texting for government 
workers is a good step. But as welcome as these steps are, they 
are not nearly enough to offset the safety threat of driver 
distraction caused by technological devices in motor vehicles. 
We don't even have an inventory of all the technologically 
distracting devices on the road today, let alone technologies 
that could help counter the distraction.
    We have made great strides in other areas, but we are at 
risk of losing some of the gains we have gotten through driver 
programs, advanced technology and safer road design; and the 
Center for Auto Safety has eight recommendations for this 
committee. Our recommendations in terms of moving forward are:
    To require NHTSA's Special Crash Investigation Unit to 
conduct a study on cell phone crashes using cases reported to 
it, just as the Agency has done for emerging technology such as 
air bags that injured out-of-position occupants. That's our 
first recommendation.
    Our second recommendation is to require NHTSA to develop a 
safety standard that would require data recorders to indicate 
cell phone or other telematic device use during a crash.
    Our third recommendation is to require NHTSA to provide an 
annual report to Congress, evaluating new electronic 
technologies that the auto and telecommunications industries 
are introducing and including in new cars to assess the 
potential for distraction. If you don't know what's going into 
the vehicles, you can't develop countermeasures for it. We have 
to get a handle on this.
    Our fourth recommendation is to enact H.R. 1895, the Safe 
Teen and Novice Driver Protection Act, which looks at younger 
drivers and their greater use of these devices and their 
greater risk of accidents. So you're putting a device in 
teenagers' hands who are the least-experienced drivers and the 
most prone for crashes.
    Our fifth recommendation is to recognize that most States 
today require a blood alcohol content test for drivers in fatal 
crashes. We'd like States to require and investigate in fatal 
crash investigations to determine whether cell phones were 
used.
    Our sixth recommendation is to require the 
telecommunications companies to provide information on cell 
phones and other communication devices used for safety studies 
on fatal and injury-producing crashes.
    We want to--our seventh is to require NHTSA and the FCC to 
report on technology that can be used to prevent telematic 
device use while driving, similar to alcohol interlocks to 
prevents drunk driving. Alcohol interlocks were known for 20 
years before we started using them. Let's not wait 20 years to 
see if there's comparable technology for technological 
distracting devices.
    And finally, we'd like to require vehicle manufacturers who 
integrate cell phones and other telematics into automatic crash 
notification systems in their vehicles to provide information 
on use of such devices in crashes recorded by the ACN system. 
There is a huge lack of data to find what the best solutions 
are to this enormous problem. We need more data and the 
recommendations that we have will enable us to get the data to 
develop the effective solutions to reduce the trauma on the 
highway and to prevent future deaths in distractive accidents 
such as happened to the Teater family.
    Thank you.
    Mr. Rush. The Chair thanks Mr. Ditlow.
    [The prepared statement of Mr. Ditlow follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.023
    
    [GRAPHIC] [TIFF OMITTED] T4850A.024
    
    [GRAPHIC] [TIFF OMITTED] T4850A.025
    
    [GRAPHIC] [TIFF OMITTED] T4850A.026
    
    Mr. Rush. The Chair now recognizes Mr. Strassburger for 5 
minutes.

                STATEMENT OF ROBERT STRASSBURGER

    Mr. Strassburger. Thank you, Mr. Chairman and Ranking 
Member Stearns.
    Alliance members use cutting-edge safety technology to put 
people first. We are committed to advancing motor vehicle 
safety, and we take concerns about driver distraction 
seriously.
    From step one, we engineer new vehicle information and 
communication systems, telematic systems, to help the driver 
perform their primary task, the safe operation of their car or 
truck. We do this by engineering these systems according to our 
driver-focused telematic guidelines.
    The guidelines address essential safety aspects of driver 
interaction with visual and manual interfaces. They consist of 
24 principles that address the design, use and installation of 
telematic systems. Each principle includes verification 
procedures, specific performance criteria, technical 
justification and examples of good and bad practice.
    Mr. Rush. Excuse me, Mr. Strassburger, is your mike on?
    Mr. Strassburger. How's that? Better?
    Mr. Rush. That's better.
    Mr. Strassburger. Let me highlight just two principles. 
Principle 1.4 addresses the positioning of visual, in-vehicle 
telematic displays. The proper positioning of displays allows 
drivers to continue to monitor the roadway peripherally while 
looking at the display by positioning it close to the driver's 
normal line of sight.
    Principle 2.1 sets visual demand limits. Eyes-off-the-road 
time is limited because functions or features are locked out 
while driving, if visual demand exceeds set limits based on a 
baseline task, which is tuning the radio.
    The goal of the guidelines it to maximize eyes on road. It 
is a rare crash that occurs while a driver's eyes are on the 
roadway. When a driver's eyes are not, the risk of a crash 
increases.
    Studies involving actual driving, such as Virginia Tech's 
Hundred Car Study and others, indicate that visual distraction 
is the primary concern. Looking away from the road scene is the 
principal contributor to crashes and near misses. The 
guidelines are now in their third iteration, and The Alliance 
is committed to updating them as scientific understanding of 
driver behavior continues to evolve.
    Every day, the industry is engaged in high-tech research 
and implementation of new safety technologies with real-world 
safety benefit such as autonomous braking systems and vehicle 
safety communication systems for crash avoidance. Automakers 
are working on important safety enhancements right now that use 
wireless communications. In the near future, cars will be 
linked wirelessly to other cars near them and with their 
surroundings to enhance safety by informing drivers of hazards 
and situations they can't see. Real-time navigation will also 
be provided, which will be critical to advancing how we manage 
congestion and, even further, reduce CO2 emissions.
    So what should be done? And here, these are not individual 
recommendations but a package of recommendations:
    We need appropriate laws with high visibility enforcement. 
The Alliance supports a ban on handheld texting and handheld 
calling while driving, to accelerate the transition to more 
advanced, safer ways to manage many common potential 
distractions.
    We need consumer education about these laws and to support 
law enforcement activities, and educate drivers that driving 
distractions are a risk, so that drivers know that even with 
the cutting-edge safety technology found in today's cars, 
driving distractions are a risk. Not just handheld texting and 
handheld calling, but eating, drinking, searching for a CD, 
anything that prolongs a driver's eyes off the road presents a 
risk.
    Finally, we need continued research so that we can further 
understand driver behaviors to enable the development of ever-
safer systems. And all of this should be done without severing 
the wireless communications link to vehicles, which will enable 
tomorrow's safety and environmental benefits.
    Mr. Chairman, members of the committee, that concludes my 
statement.
    Mr. Rush. Thank you very much, Mr. Strassburger.
    [The prepared statement of Mr. Strassburger follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.027
    
    [GRAPHIC] [TIFF OMITTED] T4850A.028
    
    [GRAPHIC] [TIFF OMITTED] T4850A.029
    
    [GRAPHIC] [TIFF OMITTED] T4850A.030
    
    [GRAPHIC] [TIFF OMITTED] T4850A.031
    
    Mr. Rush. Now again it is my pleasure to welcome back to 
this subcommittee, to this committee room, Mr. Steve Largent.
    Steve, you're recognized for 5 minutes. And good to see you 
again.

                 STATEMENT OF STEVE M. LARGENT

    Mr. Largent. Thank you, Chairman Rush. Good to see you, 
too.
    And Ranking Member Stearns, good to see you.
    Thank you for convening this hearing today on distracted 
driving and for the opportunity to appear before this committee 
on behalf of the CTIA.
    Both because of the committee's work on telecommunications 
policy matters and as a result of your individual experiences 
as consumers, you've witnessed the impressive growth in the use 
of wireless services over the past decade. Wireless devices 
allow consumers to stay in touch with family and friends, work 
on the go, receive news and information anytime and just about 
anywhere.
    A wireless device is also one of the best safety tools for 
consumers in emergency situations. In fact, wireless 
subscribers make more than 290,000 calls to 911 and other 
emergency services every day.
    While the industry recognizes the importance of wireless 
devices for public convenience and safety, CTIA and its member 
companies also know that drivers are faced with numerous 
distractions when they're on the road and that some of these 
distractions may be caused by drivers' inappropriate use of 
wireless devices. Actions that require drivers to take their 
hands off the wheel and their eyes off the road are 
incompatible with safe driving.
    The solution to the problem of distracted driving starts 
with enhanced personal responsibility and the realization that 
the primary obligation of every driver is safety. But there are 
steps government and industry can take to modify and alleviate 
behavior that contributes to distracted driving. I'd like to 
briefly discuss with you our thoughts on what these steps are.
    Starting on the legislative front, we support passage of 
State legislation that would prohibit manual text and e-mail 
messaging by all drivers. CTIA has been working with the 
National Conference of State Legislatures and other State 
organizations. Through these efforts, we hope to encourage the 
adoption of consistent State legislation addressing this 
problem. While we are committed to this course, we also agree 
with Secretary LaHood and Chairman Genachowski that a single 
solution probably will not solve the problem of distracted 
driving.
    On the technology front, changes in the way roads are 
built, cars are designed--and, of course, in wireless 
technology, each can help to improve driver safety. Wireless 
service providers, handset manufacturers and app developers are 
engaged in efforts to enhance the consumer's wireless 
experience, including developing technologies that will promote 
safer driving.
    However, technological solutions must fit within the 
existing legal framework that governs the industry, should not 
be based on technology mandates and, most importantly, must be 
consumer friendly. Carriers and manufacturers can engineer all 
sorts of amazing capabilities into their products, but if 
consumers fail to adopt or enable those capabilities, we 
haven't achieved much of anything.
    The last piece of CTIA's prescription for safer driving is 
education, an area which we have a long record of working to 
inform the public about the relationship between safe driving 
and responsible wireless use.
    The most recent example of our commitment to education and 
outreach efforts is CTIA's partnership with the National Safety 
Council. We have launched a national campaign targeting parents 
and teenagers to raise awareness about the dangers of 
distracted driving.
    Through this partnership, we've created the ``On the Road, 
Off the Phone'' campaign. The centerpiece of this effort is a 
hard-hitting television commercial that we have distributed to 
more than 600 stations across the country. It also can be 
viewed on a Web site we created to provide parents with tips on 
how to talk to their teens about safe driving.
    I'd like to take a moment to share the PSA with you.
    [Video played.]
    Mr. Largent. As I believe the PSA demonstrates, the 
wireless industry shares your desire to promote safer driving. 
This is a challenge we should address together, and we look 
forward to working with you to do just that.
    Thank you. And I look forward to any questions you may 
have.
    [The prepared statement of Mr. Largent follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.032
    
    [GRAPHIC] [TIFF OMITTED] T4850A.033
    
    [GRAPHIC] [TIFF OMITTED] T4850A.034
    
    [GRAPHIC] [TIFF OMITTED] T4850A.035
    
    [GRAPHIC] [TIFF OMITTED] T4850A.036
    
    [GRAPHIC] [TIFF OMITTED] T4850A.037
    
    [GRAPHIC] [TIFF OMITTED] T4850A.038
    
    Mr. Rush. The Chair now recognizes Mr. Dingus for 5 
minutes.

           STATEMENT OF THOMAS A. DINGUS, Ph.D., CHFP

    Mr. Dingus. Thank you. Chairman Rush, Mr. Stearns, thank 
you for the opportunity to testify on this important topic.
    I am testifying before you today as a 25-year veteran of 
driving safety research. My opinions today are based on real-
world driving data gathered using a new method, naturalistic 
driving studies. This method involves installation of 
sophisticated instrumentation, including cameras and other 
sensors, in participants' own vehicles for months at a time.
    Naturalistic data collection has provided and will continue 
to provide new insight into the driving distraction problem. 
With these data, VTTI can provide a clear picture of driving 
behavior and risk perception under real-world driving 
conditions.
    Our naturalistic driving data have produced discoveries 
that must be carefully considered in determining an 
appropriation action to this growing problem.
    First, the distraction issues that we face today are much 
different than those we faced just a few years ago and, 
consequently, are resulting in a growing number of crashes. 
Texting, typing, reading, and dialing are much, much worse than 
eating, tuning a radio or talking.
    Second, our driving distraction problem is particularly 
time-critical because the number of crashes involving complex 
tasks is growing exponentially.
    Third, while safety benefits can be realized with the 
deployment of electronic devices, these benefits can be 
attained only in vehicles engineered to minimize driver 
distraction.
    Fourth, teen drivers, by far, represent the largest 
population of those who engage in complex tasks while they 
drive and, consequently, are at the greatest risk.
    Fifth, the problem of driver distraction associated with 
electronic devices is multidimensional, requiring multiple 
solutions. For example, history has shown that education and 
public awareness efforts, although necessary, will be 
insufficient in and of themselves to protect the public.
    In conclusion, driving distraction associated with 
electronic devices is creating a serious and growing public 
health risk. Due to this risk and the rapid deployment of these 
technologies, quick and decisive action is needed.
    However, measured action is also warranted so that the 
solutions enacted with good intent do not stifle improvement in 
driving safety. Therefore, I recommend the following approach:
    First, a primary law banning the use of handheld wireless 
devices in a moving vehicle. This law should preclude the use 
of cell phones, MP3 players, BlackBerrys, I-phones, et cetera, 
as well as headset use with conventional phones. It should also 
exclude true hands-free and in-vehicle devices that are simple 
to operate and do not require substantial eye-off-road time.
    This law should carry a significant monetary fine and 
points. It should include a total cell phone ban for newly 
licensed teens and for special cases, such as school buses and 
other special cases. It should exclude emergency communications 
for all users.
    Second, we need a regulation limiting the functionality of 
visually demanding in-vehicle devices in moving vehicles. This 
includes such tasks as manual navigation destination entry and 
all keyboard tasks, including those for heavy trucks, and 
should include all complex reading tasks.
    Third, standards for developing, for testing of potentially 
distracting devices prior to market introduction need to be 
broadly applied.
    These three things will help substantially with our current 
driving distraction epidemic. Thank you very much.
    Mr. Rush. The Chair thanks the gentleman.
    [The prepared statement of Mr. Dingus follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.039
    
    [GRAPHIC] [TIFF OMITTED] T4850A.040
    
    [GRAPHIC] [TIFF OMITTED] T4850A.041
    
    [GRAPHIC] [TIFF OMITTED] T4850A.042
    
    [GRAPHIC] [TIFF OMITTED] T4850A.043
    
    [GRAPHIC] [TIFF OMITTED] T4850A.044
    
    [GRAPHIC] [TIFF OMITTED] T4850A.045
    
    Mr. Rush. And now the Chair recognizes Dr. McCartt.
    Dr. McCartt, welcome to this hearing. And we recognize you 
for 5 minutes.

                  STATEMENT OF ANNE T. McCARTT

    Ms. McCartt. Thank you, Chairman Rush and Ranking Member 
Stearns.
    The Insurance Institute for Highway Safety is a nonprofit 
research and communications organization whose mission is to 
reduce the deaths, injuries and property damage that occur on 
our Nation's roads. We are supported by U.S. auto insurers. 
Thank you for the opportunity to share our research.
    Cell phone use while driving in the U.S. is widespread and 
increasing. We need to look at what we know and don't know 
about the problem and potential solutions. The public is not 
well served by rushing to propose solutions that may not work.
    The cumulative evidence from various types of studies 
points toward cell phone use as a risk factor for crashes and 
impaired driving performance. There are discrepant estimates of 
the magnitude of the risk, but there is little doubt that this 
is a problem for highway safety.
    You've heard testimony that the problem is drivers taking 
their eyes off the road rather than talking on phones. But this 
assertion is based on analysis of safety-relevant events that 
included only a small number of crashes, and it is contradicted 
by two well-controlled studies, including one by our institute, 
that verified phone use in large samples of crash-involved 
drivers and found that the risk of crashing was four times 
higher when a driver was talking on either a hands-free or a 
handheld phone.
    My remarks today will focus on the effects of laws banning 
drivers' phone use. Seven States and the District of Columbia 
make it illegal to talk on a handheld phone while driving. The 
Institute studied driver responses to three of these bans. 
There was considerable variation in the effects, but the 
results show that bans can produce large and long-term 
reductions in drivers' handheld phone use.
    Based on a study of North Carolina's ban on teen drivers' 
use of any kind of phone, age-focused laws may have much less 
effect, especially if teens perceive the ban as not being 
enforced.
    But the safety effects of handheld bans are unknown. Many 
drivers still use handheld phones even where use is banned, and 
other drivers may simply switch to hands-free. Given that crash 
risk increases substantially while talking on either handheld 
or a hands-free phone, bans on handheld phones won't eliminate 
crashes for those who switch to hands-free.
    We also don't know the effects of bans on total time that 
drivers talk. If drivers who switch to hands-free devices have 
longer or more conversations than when they were using 
handheld, then the total time at risk for a distraction-related 
crash may increase.
    Laws limiting drivers use of all electronic devices make 
the most sense, based on research, but enforcing such laws 
would be problematic. As part of ongoing research to understand 
the implications of bans, the Institute is examining insurance 
collision claim frequency in States that enacted handheld phone 
bans.
    Figure 2 in my written testimony shows monthly rates of 
collision claims for California during the 18 months before and 
the 12 months after a handheld ban took effect in July 2008. 
The figure also shows claim rates aggregated across the 
neighboring States of Arizona, Nevada and Oregon. Although the 
rates vary considerably, month to month, there is no notable 
change in California's collision claim rate associated with the 
ban.
    Overall, the month-to-month changes in claim rates in the 
months leading up to and following the ban are very similar to 
those for the comparison States. Similar analyses for New York 
State and the District of Columbia tell a similar story: no 
apparent reduction in collision claim risk coincident with a 
handheld phone ban.
    These analyses are preliminary. They are simple, 
descriptive statistics of collision claims risk over time. 
However, they raise questions about the potential effectiveness 
of handheld cell phone bans in terms of the most important 
variable, the safety of our roads. They indicate a need to 
better understand how and when drivers use phones and how cell 
phone bans affect that usage in crash risk.
    Some have proposed that educational campaigns will reduce 
phone use and texting while driving. However, education alone 
has not proven effective in changing driver behavior. Besides, 
surveys shows that most people agree that drivers should not 
phone and drive, even many of those who admit that they do so.
    A potential approach is curbing drivers' phone use with 
technology that can control how and when motorists use their 
phones. The main customers for such technology may be fleet 
managers or parents of teenage drivers. However, phone blockers 
of any sort aren't yet in widespread use and their real-world 
effects aren't known.
    Driver error has long been the most frequent proximate 
cause of crashes. To prevent or mitigate some of these errors, 
automakers and their suppliers are introducing various 
technologies designed to alert drivers to imminent collisions 
or dangerous situations and, in some cases, to automatically 
brake or correct the course of a vehicle. It is important to 
consider that these new technologies may offer some protection 
against distractions from cell phone use or other sources.
    Before policymakers can make sound decisions about what 
countermeasures to adopt, we need better evidence on several 
issues; but the most serious deficit in our knowledge is that 
we do not know whether laws banning drivers' phone use have 
reduced the frequency of crashes. Before we encourage or 
require that more States pass bans, we need to establish 
whether they enhance traffic safety.
    Thank you very much.
    Mr. Rush. Thank you very much.
    [The prepared statement of Ms. McCartt follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.046
    
    [GRAPHIC] [TIFF OMITTED] T4850A.047
    
    [GRAPHIC] [TIFF OMITTED] T4850A.048
    
    [GRAPHIC] [TIFF OMITTED] T4850A.049
    
    [GRAPHIC] [TIFF OMITTED] T4850A.050
    
    [GRAPHIC] [TIFF OMITTED] T4850A.051
    
    [GRAPHIC] [TIFF OMITTED] T4850A.052
    
    [GRAPHIC] [TIFF OMITTED] T4850A.053
    
    [GRAPHIC] [TIFF OMITTED] T4850A.054
    
    [GRAPHIC] [TIFF OMITTED] T4850A.055
    
    [GRAPHIC] [TIFF OMITTED] T4850A.056
    
    [GRAPHIC] [TIFF OMITTED] T4850A.057
    
    [GRAPHIC] [TIFF OMITTED] T4850A.058
    
    [GRAPHIC] [TIFF OMITTED] T4850A.059
    
    Mr. Rush. Certainly some very interesting and provocative 
questions that you--testimony that you presented. And the Chair 
recognizes himself for 5 minutes.
    Let me just ask this--and, Dr. McCartt, you might be able 
to answer this question. Is there any activity or any 
requirement at the State level that in driver's ed, certainly 
before one can--a teenager can get any permit to drive that 
there be some kind of course work or at least some kind of 
information or some type of sharing of information with the 
student so they can become aware, even at that moment when 
they're in the driver's education class or in a driver's--
before they get a permit?
    Ms. McCartt. I want to make sure I understood your 
question. You're asking me whether State driver ed programs 
include information?
    Mr. Rush. Well, in my State of Illinois, if--I believe if 
you are 16, then you can apply for a permit. And before you can 
get that permit you have to have so many hours in high school 
to discuss traffic safety, operation--safe operation of a 
vehicle and other kinds of issues they deal with. But I am not 
certain that they actually segregate and focus on the problems 
associated with cell phone use and driver distraction.
    My question is, do you know of any State--is it widespread 
among all the States or are there any States who are at the 
forefront of trying to proactively teach this to our high 
school students at the moment when they are making some 
definitive actions, trying to secure the ability and their 
license to drive?
    Ms. McCartt. I am not sure whether it is common in driver 
education classes to include information on distraction. I 
think, however, that as a cautionary note, driver education can 
be an effective way to teach the basic rules of the road. But 
it hasn't been an effective way to reduce crashes.
    I think teens, like adults, generally need more than 
education about a risk to cease from that risky behavior.
    So education may have a short-term effect, but in the long 
term, unfortunately, drivers usually need more than education 
to change their behavior.
    Mr. Rush. Is there anybody else? Does anybody else have 
anything they want to add or say about that question? Because 
it seems to me that this is a point where--the first time you 
can really, in a structured way, get the attention of children 
as it relates to distracted driving.
    And I am not sure if there is a requirement at any State 
level that the issue of distracted driving is a part of any 
curriculum. And I am just asking, is anyone aware of that?
    Mr. Dingus. I think it is being included in driver 
programs. Some States have GDL requirements that limit or 
eliminate wireless device use.
    But I have to agree with Dr. McCartt, you know, that's a 
necessary thing to do, to educate young people, but it is 
insufficient when you're really not--you know, it is hard, very 
hard to impact the behavior of teenagers.
    Mr. Rush. Thank you very much.
    Dr. McCartt, other countries have taken a more aggressive 
approach against cell phone usage while driving. For example, 
most EU member states prohibit handheld cell phone use while 
driving. Japan and Israel have complete bans on cell phone use 
while driving.
    What do you think the U.S. can learn from other countries? 
And are nations that have been more successful in compliance or 
more effective in enforcement--are these nations more 
successful or more effective in their enforcement?
    Ms. McCartt. You're asking about the enforcement of the 
laws?
    Mr. Rush. Yes. What can the U.S. learn from other 
countries?
    Ms. McCartt. Well, in other areas of highway safety, belt 
use is the best example. What has really gotten belt use at a 
very high level in this country is not only enforcement but 
enforcement that's strongly publicized.
    When we've looked at States that have handheld phone bans, 
we actually do see pretty high levels of enforcement. But we 
think one issue is that this enforcement isn't publicized.
    So, you know, I think handheld bans can be enforced. I 
think the issue, as I suggest in my testimony, is that if 
drivers simply switch to hands-free, that won't eliminate the 
crash risk associated with talking on phones. But well-
publicized enforcement is a very, very strongly proven 
countermeasure in this country.
    Mr. Rush. My time has expired.
    The Chair recognizes Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Teater, I have three sons, and during the break, I 
text-messaged them, telling them not to drive and text-message. 
And they all came back and said, Yes, sir. So, let me just 
offer my sympathy and commend you for your advocacy here, and 
also for taking of your life and time to do this in remembrance 
of your son. And we are all sympathetic of it.
    When I get into my van, a new van, if I don't put my 
seatbelt on, I hear a bing, bing, bing. And I can't get rid of 
this bing. I made sure that anybody gets in this and if the 
passenger side happens to get in, if they don't put their 
seatbelt on, there's a bing, bing, bing.
    So, Mr. Strassburger, it seems to me that the automobile 
companies could work out some procedures.
    And then, Mr. Largent, I've got some ideas that the cell 
phone companies could do. For example--it was briefly touched 
upon--if a vehicle could sense and give a large buzz or sound 
to the driver if they were on the cell and not paying 
attention.
    There seems--what I am hearing from Dr. McCartt is that we 
can legislate, but we can't necessarily enforce it. And so 
maybe the combination of technology on the phone and technology 
in the vehicle, we can stop this--much like I have got to put 
my seatbelt on, or I have got to listen to this bing, bing, 
bing forever.
    So isn't there something that the automobile manufacturers 
could do in addition to--let's say, all the States passed a law 
and whatever we did in the Federal level--I mean, 45,000 people 
die every year of automobile accidents. Mr. LaHood, the 
Secretary, couldn't say, of the 6,000 that were distracted, how 
many of those were due to text messages.
    So maybe the larger issue is, between the cell phone 
companies and the automobile manufacturers we could institute 
something, preventive procedures.
    Mr. Strassburger. Congressman, we know how to do this.
    Mr. Stearns. Yes. Because when we back up now, there's a 
buzzer that comes on when you back up.
    Mr. Strassburger. We know how to do this. And the model is 
the model that you mentioned this morning, which is the same 
model that we used to reduce or to increase safety belt use, 
that we've used to reduce drunk driving; and it is three 
things.
    And, you know, after--this is probably my third hearing now 
on this issue and there are a lot of questions about education. 
But we need three things. We need strong laws, visibly 
enforced.
    We need education about those laws, the fact that they are 
being enforced so that we know that--we create the perception 
that if you drive distracted, you're going to be caught and 
you're going to be fined or maybe even assessed points.
    And then there is a technology component. We are, at The 
Alliance at least, doing that by designing our systems pursuant 
to our guidelines, which are very well--rigorously based in 
sound science and the research to mitigate and manage the 
driver distraction, so that when you do enter a car, if you are 
carrying a device, you can connect that device either 
physically or electronically, and then it becomes integrated 
with the operation of the vehicle and subject to our 
guidelines.
    So we know how to do this.
    Mr. Stearns. OK. I was also thinking that in the case of 
the son--Mr. Teater's son, that that woman, when she started to 
get distracted, there was something in the car that would alert 
her that she's being distracted. Because the distance in the 
radar between her and the vehicle she's going to hit would 
signal--and her speed. And it'd be an automatic flash that she 
would know.
    Mr. Strassburger. There are other technologies, absolutely, 
that we are working on--driver-assist technologies that could.
    But the one thing we cannot do is understand what you are 
thinking; we cannot measure when you are cognitively 
distracted.
    Mr. Stearns. Mr. Largent, you know, when you have a phone, 
you can get GPS on this. And so with GPS, they will tell me 
where my phone is. And is it possible that some technological 
advance could be done into the cell phone that would sense that 
when a person is using text messages at a certain speed or 
something, that it would not work?
    Or is there something that could be put into the cell phone 
tied to GPS that would say, You are text-messaging while you're 
driving, or something?
    I mean, is there anything in your area that people have 
talked about? I am just curious.
    Mr. Largent. Well, great idea. There's about six companies 
that are already doing it. I have become aware of at least six 
or seven companies that have approached my office to say that 
they are developing either applications that you just simply 
download on your phone or actual augmentation to a cellular 
phone that actually would shut it down after the--when the 
phone senses that it is traveling at more than 5 miles an hour, 
it'll shut down your ability to use the phone.
    Mr. Stearns. So if you're going to text-message, you've got 
to stop your car?
    Mr. Largent. That's right.
    Mr. Stearns. Yes. That seems pretty easy to do.
    Dr. McCartt, I mean, your testimony was factual. But what 
you're basically saying is that if we pass these laws, there's 
no assurance, there's no evidence that it will stop people from 
using them and distracting themselves.
    There's no evidence that passing laws would do anything; is 
that what you're saying?
    Ms. McCartt. Not yet. No.
    Mr. Stearns. Not yet.
    And you're also saying, we have no idea how many people are 
actually--in the case of Mr. Teater's son, that have actually 
been distracted and died--because while there's 45,000 people 
who have died every year in automobile accidents; and Mr. 
LaHood, the Secretary, said that 6,000 are distracted but he 
doesn't know how many.
    So we have no idea how many really are a case like Mr. 
Teater's. Is that what you're saying?
    Ms. McCartt. Yes. Because if you think of a car crash, 
after it's occurred, it's almost impossible for a police 
officer to document that someone was talking on a phone or 
engaged in some----
    Mr. Stearns. Well, Mr. Teater found out that the woman who 
caused it, he found everything about it. So----
    Ms. McCartt. Yes, you can in some cases. But as a general 
matter it's not always possible. Unless a driver volunteers or 
someone witnessed the crash, it can be difficult for a police 
officer to document. And even if it's known, it's not always 
documented in a police crash report.
    Mr. Stearns. OK.
    Mr. Teater, I'm going to let you have the last word here. I 
assume that you would like the Federal Government to pass a law 
forbidding this.
    Or would you want to do it like we did with the seat belts 
which--we say, the States will get grants if they adopt this 
law as an incentive?
    What is your ultimate--if you could wave a wand today, what 
would you like done?
    Mr. Teater. Well, whatever will get it done the fastest. 
And I guess I am not as experienced with these things as I 
should be to recommend that. But I do believe that this is a 
problem that has come up on us very, very quickly, and it is 
going to escalate very, very quickly if we don't get ahead of 
it.
    I agree with Dr. McCartt, we do not know how many crashes 
are caused. It is hard to determine that. I like the questions 
about the technology. Some of the ideas you have thrown out 
have been tested; they are out there.
    We need to get them to market quickly. I know that at least 
employers in this country and parents in this country would use 
these technologies for their kids and their employees without 
any incentive or law. They would do it tomorrow, and we would 
make our roadways safer. We have to move forward on all fronts 
as fast as possible. And I do think it is time for Federal 
leadership, probably because it has come up so suddenly. And I 
believe that we can move faster at this level than we can at 
every State level. Some states move fast I know.
    Mr. Stearns. All right. Thank you, Mr. Chairman.
    Mr. Rush. The gentleman's time is up.
    The Chair now recognizes the gentleman from Washington, Mr. 
Inslee, for 5 minutes.
    Mr. Inslee. Thank you.
    Mr. Teater, you said that you helped launch a technology 
start-up company to help solve this problem. Could you just 
briefly tell me what that is? I may have missed your testimony.
    Mr. Teater. First of all, also in my testimony, it needs to 
be noted that I worked for one of these companies and helped 
launch one of these companies for years so I got to know, 
obviously, what they are doing.
    Mr. Inslee. Just real briefly, what did you do.
    Mr. Teater. Well, if you tried to call me and I am driving, 
you would get a recorded message that says, it appears the 
caller is driving, Mr. Teater is driving; press one to go to 
voice mail, press two to leave an emergency voice page, or 
press three to have your call automatically connected at the 
end of his journey.
    Mr. Inslee. So if we do that, would that also disable a 
passenger's?
    Mr. Teater. No, there is a passenger override function 
which can be offered by the employer or by the parent. They may 
not choose to offer that. Whenever you override as a passenger, 
it is reported back to the employer or the parent.
    Mr. Inslee. I appreciate it. It sounds really interesting. 
Congratulations on your work. Thank you for your work.
    Mr. Teater. But it is not just that company. There are at 
least six or seven others that have various products like that, 
that are ready to go to market.
    Mr. Inslee. Great. That is exciting.
    I want to ask about the issue of hands-free sets. I think 
it is very well established that we have a problem associated 
with visual distraction and tactile distraction drivers. I 
think that is very, very clear.
    The question in my mind is, for hands-free technology, 
which presents a nonvisual, nontactile disruption, but it is a 
cognitive issue; how should we think of that?
    I will just tell you my reaction. I haven't seen any 
research about this, but my reaction is it shouldn't be any 
significantly different than talking to a passenger in the car. 
And my immediate reaction is that talking to a passenger in a 
car is not a distraction that is going to be one that we will 
try to legislate or should try to legislate. And my immediate 
reaction is not to distinguish a hands-free conversation from a 
conversation with a passenger in a car, and therefore, we 
shouldn't try to legislate against a hands-free situation.
    And I would just ask anyone who has any science to discuss 
what we know about that or don't know about that. I would 
appreciate knowing about it. And any of our panel want to 
address that issue?
    Ms. McCartt. I can start. Our institute did a study; I 
mentioned in my summary. A similar study was done in Canada 
where we were able to verify phone use of drivers involved in 
crashes. And we also had information from them about whether it 
was handheld or hands-free. And what we found in our study was 
that the risk of crashing was four times higher when someone 
was talking on the phone--we didn't know about the dialing 
aspect--and that there was no significant difference between 
the risk when a person was using a handheld or a hands-free 
phone.
    There are also a lot of experimental studies, you know 
simulators, test tracks, that show that drivers are similarly 
distracted whether conversing handheld or hands-free.
    I think the main distinction between passengers and a 
telephone conversation is that passengers are in a vehicle with 
the driver. So if you exclude teen passengers, who do have a 
higher crash risk with passengers, when you look at crashes 
involving adults, what you see is often a protective effect of 
passengers because they may be helping the driver in the 
driving situation and know when to talk or not talk.
    When someone is on the other end of a phone, they are not 
driving with you so they can't adjust the conversation to the 
demands of the driving situation.
    But I think that this is one area that the research has not 
really clearly established whether fully hands-free, for 
example, might have some margin of safety, but I think it won't 
eliminate it. I think hands-free phones won't eliminate 
distraction.
    Mr. Inslee. Is it clear, at least right now, that there 
is--some fellows were showing me some research yesterday that 
suggested there was a very significant increase in risk 
associated with texting, like a 20-fold increase in rates of 
accident, but nothing approaching anything close to that for a 
hands-free scenario. Does anybody--is there a distinction 
there?
    Ms. McCartt. In our study, we found a fourfold increase in 
crashing when talking on a hands-free phone.
    Mr. Inslee. How about texting?
    Ms. McCartt. We didn't look at texting. When we did our 
study, texting was rare. I think, even without research, it is 
obvious that texting is extremely unsafe. The estimate of 
texting, though--and Dr. Dingus can speak to the research that 
is his--it involved events, very few of which were crashes. So 
I don't think we have a really precise estimate at this point 
based on real-world crashes of the crash risk associated with 
texting, but I am sure there is a substantial risk.
    Mr. Inslee. Dr. Dingus, could you----
    Mr. Dingus. Well, I think there are--what Anne said is 
true. Hands-free and handheld conversation is not much 
different. The issue becomes, how risky is that? I don't 
believe the fourfold increase; I think it is less than twofold, 
but I think it is greater than one, so it is an issue.
    But the act of holding the phone to one's ear versus not 
holding the phone to one's ear is not the issue. The issue is 
taking your eyes off the road. There are really good simulator 
studies that show that if you are engaged in a really complex 
conversation, emotional conversation, on a cell phone, your 
reaction time is delayed about 3/10ths of a second.
    We have data from truck drivers where their eyes are off 
the road for 5 seconds, and that is the magnitude of the 
difference in the risk that you are talking about.
    Anne is right, a 23-fold increase, we don't have a precise 
estimate about that, but I guarantee you it is higher than 15 
and probably closer to 20.
    Mr. Inslee. Is there anything comparing conversations with 
a passenger in a car comparing to passengers in a hands-free 
environment with someone outside of a car?
    Mr. Dingus. Sure. I mean, I can--we have a----
    Mr. Inslee. Well, let me just ask a you a first question. 
Is there any evidence that having passengers in a car and/or 
having conversations with those passengers is a distraction 
that increases the crash risk.
    Mr. Dingus. You have to think about it in the larger 
context of driving. Passengers can be a distraction, but they 
also have benefits in the larger context. My wife, for example, 
serves as a collision avoidance device because she is also a 
look-out. Plus if you are an adult driver, you drive 
differently when passengers are in the car.
    Mr. Inslee. So what is the evidence net for having 
passengers?
    Mr. Dingus. The net for adults is a benefit. The net for 
teens is a detriment.
    Mr. Inslee. Anyone else want to add something?
    Mr. Teater. The universities of Utah did a simulator study 
where they put two people, a passenger and a driver, in a 
simulator and told them to drive down and get off the first 
rest area, and all of them did.
    They then had a person talking on a hands-free cell phone 
drive down the same road, gave them the same instructions, to 
get off at the rest area, and I think about 60 percent of them 
missed the rest area.
    In the first example, again, the passenger was in the 
driving environment, even helped point out the rest area. When 
there is a passenger and there is a needed pause in a 
conversation because a light suddenly turns yellow or someone 
is about to pull out, the conversation stops.
    When we are in a conversation on a cell phone when someone 
is not in our environment, there is a totally different 
cognitive function in the brain. We are engaged in another 
remote space, so we don't see what is in front of us, so a 
pretty significant difference.
    And that is one specific piece of research that compared 
those two.
    Mr. Strassburger. And if I could, we need to look at the 
full body of research and reconcile that. And when you do that, 
I think you look at, sure, there are simulator studies that 
suggest that the magnitude of cognitive distraction may be 
very, very concerning. But when you calibrate that research and 
compare it to the on-road actual driving research that Dr. 
Dingus has done, the naturalistic research, you find that the 
role of cognitive distraction would appear to be much less.
    So we need to be thinking about how we manage and mitigate 
this risk, which is what we are doing with our guidelines here. 
Is talking on a cell phone hands-free or handheld pose a 
potential risk? Yes, because it potentially takes your eyes off 
the road and potentially your mind off the world.
    But the real-world driving studies that Dr. Dingus has done 
doesn't support the claims made about the significant risk to 
cognitive distraction. And I liken that to we ourselves test 
vehicles on a computer, but we would not put that vehicle on 
the road until we tested that car in the real world against a 
crash barrier or otherwise. And that is the same kind of thing.
    You can do simulated studies. They have value. They allow 
you to iterate through various designs and research various 
things. But at the end of the day, you need to calibrate 
yourself with real-world testing.
    Mr. Inslee. Before I forget, I just want to ask, what is 
the research on eating in a car, a driver who is eating? How do 
those numbers stack up to these?
    Mr. Dingus. Eating, drinking, talking to passengers is much 
lower than the--much, much lower--than the tasks that require 
you to take your eyes off the road for a long time, like 
texting, dialing, reading, and it is true in both cars and 
trucks.
    Mr. Inslee. How does eating--I am sorry.
    Mr. Rush. You had double the time that you were really 
allocated.
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Rush. And I really do not want to further ask these 
witnesses to sacrifice any more of your time.
    You have been very, very good to us. You have been very 
gracious with your time, and we certainly appreciate you 
spending this time with the subcommittee. And again, thank you 
for taking the time out of your busy schedule to be with us. 
But this committee hearing is now adjourned.
    [Whereupon, at 1:12 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T4850A.060
    
    [GRAPHIC] [TIFF OMITTED] T4850A.061
    
    [GRAPHIC] [TIFF OMITTED] T4850A.062
    
    [GRAPHIC] [TIFF OMITTED] T4850A.063
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
